APPENDIX TABLE OF CONTENTS
Opinions and Orders
Order of the Court of Appeals of the
State of New York (October 17, 2019)

la

Decision and Order of the New York Appellate
Division, Second Judicial Department
(April 24, 2019)........... .................................

2a

Decision and Order on Motion,
New York Appellate Division,
Second Judicial Department
(February 2, 2018)........................................ ..... 8a
Decision and Order (After Fact-Finding Hearing)
of the of the Family Court of New York,
Westchester County (December 18, 2017)....... 10a
Temporary Order of Protection of Family Court
of the State of New York
(September 2, 2015)........................................... 80a

App.la
ORDER OF THE COURT OF APPEALS
OF THE STATE OF NEW YORK
(OCTOBER 17, 2019)
STATE OF NEW YORK
COURT OF APPEALS
IN THE MATTER OF NICOLE HAIMS
Respondent,
v.
JOHN LEHMANN,
Appellant.
No. SSD 64
Before: Hon. Janet DIFIORE, Chief Judge, presiding.
Appellant having appealed to the Court of Appeals
in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed without
costs, by the Court sua sponte, upon the ground that
no substantial constitutional question is directly
involved.
/s/ John P. Asiello
Clerk of the Court

App.2a
DECISION AND ORDER OF THE
NEW YORK APPELLATE DIVISION,
SECOND JUDICIAL DEPARTMENT
(APRIL 24, 2019)
SUPREME COURT OF THE
STATE OF NEW YORK APPELLATE DIVISION:
SECOND JUDICIAL DEPARTMENT
IN THE MATTER OF NICOLE HAIMS,
Appellant-Respondent,
v.
JOHN LEHMANN,
Respondent-Appellant.
2018-00090
(Docket No. V-l 1126-15)
Before: Leonard B. AUSTIN, J.P., Sheri S. ROMAN,
Sylvia O. HINDS-RADIX, Linda CHRISTOPHER, JJ.
In a proceeding pursuant to Family Court Act
article 6, Nicole Haims appeals, and John Lehmann
cross-appeals, from an order of the Family Court,
Westchester County (Rachel Hahn, J.), dated December
18, 2017. The order, insofar as appealed from, after a
hearing, failed to award Nicole Haims sole legal custody
of the subject child, discontinued John Lehmann’s
therapeutic supervised parental access with the child,

App.3a
awarded John Lehmann unsupervised parental access
with the child, and directed that, commencing August
31, 2018, John Lehmann’s unsupervised parental
access occur every weekend from Friday at 7:00 p.m.
through Sunday at 7:00 p.m. The order, insofar as
cross-appealed from, after a hearing, awarded the
parties joint legal custody of the child and awarded
Nicole Haims sole physical custody of the child.
ORDERED that the order is modified, on the law
and the facts, (l) by deleting the provision thereof
awarding the parties joint legal custody of the subject
child, and substituting therefor a provision awarding
Nicole Haims sole legal custody of the child, and
(2) by deleting the provisions thereof discontinuing
John Lehmann’s therapeutic supervised parental access
with the child, awarding John Lehmann unsupervised
parental access with the child, and directing that,
commencing August 31, 2018, John Lehmann’s unsup­
ervised parental access occur every weekend from
Friday at 7:00 p.m. through Sunday at 7:00 p.m., and
substituting therefor a provision continuing John
Lehmann’s therapeutic supervised parental access with
the child; as so modified, the order is affirmed insofar
as appealed and cross-appealed from, without costs
or disbursements, and the matter is remitted to the
Family Court, Westchester County, to specify a schedule
for John Lehmann’s continued therapeutic supervised
parental access with the child forthwith.
In November 2011, the subject child was born to
John Lehmann (hereinafter the father) and his thenwife, Jolie Lehmann (hereinafter the mother). The
father and the mother separated in March 2013. The
child resided with the mother at the marital residence
except for a brief period when the child resided with

App.4a

her maternal grandparents to allow for her attendance
at a certain preschool.
On May 24, 2015, the mother suffered a brain
aneurysm and was hospitalized. At that time, the
child went to stay with the mother’s sister, Nicole
Haims (hereinafter the maternal aunt), the maternal
aunt’s husband, and their two sons. The mother
subsequently died on June 9, 2015. The child continued
to live with the maternal aunt and her family.
In August 2015, the maternal aunt commenced a
proceeding for guardianship of the child, which sub­
sequently was converted, on consent, to a proceeding
for custody of the child. During the course of the
proceeding the father had only supervised parental
access with the child. In October 2017, the Family
Court directed the father to begin therapeutic super­
vised parental access with the child. Following a
hearing, in an order dated December 18, 2017, the
court, inter alia, awarded the parties joint legal custody
of the child with physical custody to the maternal
aunt, discontinued the father’s therapeutic supervised
parental access with the child, awarded the father
unsupervised parental access with the child, and
directed that, commencing August 31, 2018, the
father’s unsupervised parental access occur every
weekend from Friday at 7:00 p.m. through Sunday at
7:00 p.m. The maternal aunt appeals from so much of
the order as failed to award her sole legal custody of
the child, discontinued the father’s therapeutic
supervised parental access with the child, awarded
the father unsupervised parental access with the
child, and directed that, commencing August 31,
2018, the father’s unsupervised parental access occur
every weekend from Friday at 7:00 p.m. through

App.5a

Sunday at 7:00 p.m. The father cross-appeals from so
much of the order as awarded the parties joint legal
custody of the child and awarded the maternal aunt
sole physical custody of the child.
“In a custody proceeding between a parent and a
nonparent, the parent has a superior right to custody
that cannot be denied unless the nonparent demon­
strates that the parent has relinquished that right due
to surrender, abandonment, persistent neglect, unfit­
ness, or other extraordinary circumstances” (Matter
of Williams v. Frank, 148 A.D.3d. 815, 816; see Matter
of Bennett v. Jeffreys, 40 NY. 2d 543, 548; Matter of
Suarez v. Williams, 26 NY.3d 440, 446; Matter of
Herrera v. Vallejo, 107 A.D.3d 714, 714). “Only if the
nonparent meets this burden does the court determine
whether the best interests of the child warrant
awarding custody to the nonparent” (Matter ofHerrera
v. Vallejo, 107 A.D.3d at 715; see Matter of Suarez v.
Williams, 26 NY.3d at 446; Matter of Bennett v.
Jeffreys, 40 NY.2d at 548; Matter of Williams v.
Frank, 148 A.D.3d at 816).
Here, we agree with the Family Court’s deter­
mination that the maternal aunt sustained her burden
of demonstrating the existence of extraordinary
circumstances. There was evidence before the court
that, among other things, the father had abused
alcohol for nearly 20 years, had a history of relapses
during prior attempts to attain sobriety, and was
only at the beginning stages of treatment to achieve
sobriety during this most recent period of abstinence
(see Matter of Herrera v. Vallejo, 107 A.D.3d at 715;
Matter of Rodriguez v. Delacruz-Swan, 100 A.D.3d
1286, 1288). The court should not have awarded joint
legal custody of the child to the parties given the

App.6a

hostility and antagonism between them (see Braiman
v. Braiman, 44 NY.2d 584, 589-590; Irizarry v. Irizarry,
115 A.D.3d 913, 914; Matter of Wright v. Kaura, 106
A.D.3d 751). Under the circumstances, the court should
have awarded sole legal custody of the child to the
maternal aunt. The award of sole physical custody of
the child to the maternal aunt is in the best interests
of the child and is supported by a sound and substantial
basis in the record (see Matter of Herrera v. Vallejo,
107 A.D.3d at 715; Matter of Barcellos v. WarrenKidd; 57 A.D.3d 984, 985).
The determination of parental access is entrusted
to the sound discretion of the Family Court, and an
award of parental access will not be disturbed unless
it lacks a sound and substantial basis in the record
(see Matter of Pagan v. Gray, 148 A.D.3d 811, 812).
Here, the court’s determination discontinuing the
father’s therapeutic supervised parental access with
the child and awarding the father unsupervised
parental access with the child, after only two months
of therapeutic supervised parental access between
the father and the child and without some mechanism
in place to ensure the father’s continued sobriety,
lacked a sound and substantial basis in the record
(cf Matter of Ottaviano v. Ippolito, 132 A.D.3d 681,
683; Matter of Castagnola v. Muller, 105 A.D.3d 954,
955; Matter of Thompson v. Yu-Thompson, 41 A.D.3d
487, 488).

App.7a
In light of our determination, we need not reach
the maternal aunt’s remaining contention.
AUSTIN, J.P., ROMAN, HINDS-RADIX and
CHRISTOPHER, JJ., concur.
Enter: Is/ Anrilanne Agostino
Clerk of the Court

App.8a
DECISION AND ORDER ON MOTION,
NEW YORK APPELLATE DIVISION,
SECOND JUDICIAL DEPARTMENT
(FEBRUARY 2, 2018)
SUPREME COURT OF THE
STATE OF NEW YORK APPELLATE DIVISION:
SECOND JUDICIAL DEPARTMENT
IN THE MATTER OF NICOLE HAIMS,
Appellant,
v.
JOHN LEHMANN,
Respondent.
2018-00090
(Docket No. V-11126-15)
Before: John M. LEVENTHAL, J.P.,
Jeffrey A. COHEN, Betsy BARROS,
Valerie Brathwaite NELSON, JJ.
Motion by the appellant to stay enforcement of so
much of an order of the Family Court, Westchester
County, dated December 18, 2017, as discontinued
the respondent’s therapeutic supervised visitation
with the subject child and directed that the respondent
have certain unsupervised visitation, with the respond­
ent providing transportation for his parental access,

App.9a

and to direct that the respondent shall have supervised
weekly visitation with the subject child, to be super­
vised by Benna Stober, pending hearing and deter­
mination of an appeal from the order.
Upon the papers filed in support of the motion
and the papers filed in opposition and in relation
thereto, it is
ORDERED that the motion is granted, and
enforcement of the eleventh, twelfth, and fifteenth
through fortieth decretal paragraphs of the order
dated December 18, 2017, is stayed and the respondent
shall continue to have supervised weekly visitation
with the subject child, to be supervised by Benna
Stober, pending hearing and determination of the
appeal; and it is further,
ORDERED that the first through fourth decretal
paragraphs of the order to show cause of this Court
dated December 29, 2017, in the above-entitled matter
are vacated forthwith.
LEVENTHAL, J.P., COHEN, BARROS and
BRATHWAITE NELSON, JJ., concur.
ENTER:
/s/ Anrilanne Agostino
Clerk of the Court

App.lOa
DECISION AND ORDER
(AFTER FACT-FINDING HEARING)
OF THE FAMILY COURT OF NEW YORK,
WESTCHESTER COUNTY
(DECEMBER 18, 2017)
FAMILY COURT OF NEW YORK
WESTCHESTER COUNTY
In the Matter of a Custody Proceeding Under
Article 6 of the Family Court Act
NICOLE HAIMS
Petitioner,
v.
JOHN LEHMANN,
Respondent.
File No.: 143772
Docket No. V-11126-15
Before: Hon. Rachel HAHN,
Judge of the Family Court.
NOTICE: WILLFUL FAILURE TO OBEY THE
TERMS AND CONDITIONS OF THIS ORDER MAY
RESULT IN COMMITMENT TO JAIL FOR A TERM
NOT TO EXCEED SIX MONTHS.

App.lla
PROCEDURAL HISTORY
Before the Court for decision is a petition filed on
August 24, 2015, by Petitioner, Nicole Haims (herein­
after “Petitioner”), against Respondent, John Lehmann
(hereinafter ‘Respondent”), seeking an Order awarding
her guardianship of the subject child, 0[...] Lehmann
[DOB XX/XX/2011 (hereinafter “the Child”)].
The fact-finding hearing commenced on August
2, 2016, continued over the course of 14 days, and
concluded on September 26, 2017. On September 26,
2017, and on consent of all counsel, the Court granted
Petitioner’s application to convert the guardianship
petition to a custody petition. On all dates, Petitioner
appeared personally with Lisa Zeiderman, Esq. and
Jennifer Jackman, Esq., Respondent appeared person­
ally with Martin Rosen, Esq., and Jo-Ann Cambareri,
Esq. appeared as Attorney for the Child (hereinafter
“AFC Cambareri”). Petitioner called as witnesses: l)
the Child’s school teacher, Leticia Halpern; 2) family
friend, Andi Warmund; 3) family friend, Christopher
Reilly; 4) husband, Lowell Haims; 5) the Child’s
maternal grandfather, Howard Schwell; 6) family
friend, Marguerite DeFonte; 7) the Child’s therapist,
Lauren Behrman, PhD; 8) testified on her own behalf;
and called 9) Raymond Griffin, PhD, CASACl, as a
rebuttal witness.
Respondent called as witnesses: l) co-worker,
Christopher Dunnigan; 2) psychiatrist, Gabrielle Centu­
rion, M.D.; 3) Supervised Visitation Expert Director
and Supervisor, Carmen Candelario; 4) wife, Philine
Lehmann; and 5) testified on his own behalf. AFC
1 Credentialed Alcoholism and Substance Abuse Counselor.

App.l2a
Cambareri did not call any witnesses on behalf of the
Child. Written summations were fully submitted by
the parties and AFC Cambareri on November 15, 2017.
The parties submitted themselves for a forensic
mental health evaluation with Marc Abrams, PhD,
and consented to the evaluator’s report coming into
evidence as the Court’s Exhibit 1, subject to cross
examination. See, Order for Release of Forensic Report
entered July 27, 2016 (Hahn, J); Amended Order
Appointing Neutral Forensic Evaluator entered June
30, 2016 (Hahn, J); Order Appointing Neutral Forensic
Evaluator entered June 9, 2016 (Hahn, J). Respondent
also submitted himself to a forensic drug and alcohol
evaluation with Raymond Griffin, PhD, CASAC and
the parties consented to Dr. Griffin’s report coming
into evidence as the Court’s Exhibit 2, subject to
cross examination. See, Gurewich v. Gurewich, 43
A.D.3d 458 (2nd Dept. 2007); see also, Cohen v.
Merems, 2 A.D.3d 663 (2nd Dept. 2003); Order for
Release of Evaluation entered December 15, 2016
(Hahn, J); Amended Order for Evaluation entered
May 26, 2016 (Hahn, J); Order for Evaluation entered
May 26, 2016 (Hahn, J).
The Court having observed the demeanor of the
witnesses and having made determinations as to
their credibility, and having considered the evidence
and exhibits makes a finding of extraordinary circum­
stances and that it is in the best interest of the Child
to grant the petition to the extent stated herein based
upon the following findings of fact and conclusions of
law. See, IMO Noonan etal. v. Noonan, 109 A.D.3d 827
(2nd Dept. 2013); IMO Brown v. Zuzierla, 73 A.D.3d
765 (2nd Dept. 2010).

App.l3a

FINDINGS OF FACT
Petitioner’s Case
Petitioner’s Testimony
Petitioner is the maternal aunt of the Child and
is married to Lowell Haims (hereinafter “Mr. Haims”).
They have two sons, ages 15 and nine. Petitioner
testified that the Child was born on November 25,
2011, to Respondent and Jolie Lehmann (hereinafter
“the Mother”) and that when the Child was born,
Respondent shut down, appeared disengaged and
was out of it. On May 24, 2015, Petitioner took the
Child to reside with her family when the Mother
suffered a brain aneurysm at the maternal grand­
parents’ home. Petitioner, the maternal grandparents,
Respondent, and Respondent’s sister were present in
the hospital when the Mother passed away on June 9,
2015.
On June 11, 2015, Respondent and Petitioner
spoke over the telephone, and Respondent stated that
he was upset with God and was concerned about how
he was going to inform the Child of the Mother’s
passing. Respondent read Petitioner a speech over
the telephone and slurred his words, repeated himself,
and seemed confused. Thereafter, Petitioner spoke
with her therapist about how to break the news to
the Child. Petitioner made arrangements with the
therapist to come to her home with the family present,
when the Child would be informed of the Mother’s
passing. Petitioner stated that she, her husband, the
maternal grandparents, Respondent and Respondent’s
sister were in her home on that day. Petitioner
testified that Respondent arrived early with his

App.l4a
sister, took the Child outside of everyone’s presence
and told the Child the Mother passed away.
A few weeks after the Mother’s passing, Petitioner
smelled alcohol on Respondent and testified that he
appeared sweaty, disoriented and drunk. At the funeral,
she observed Respondent frantically shoveling dirt in
the Mother’s grave. After the funeral, Respondent
was drinking at her home and appeared out of it.
Petitioner decided that she would no longer serve
Respondent alcohol at her home as she believed that
Respondent had a history of alcoholism. Petitioner
also testified that Respondent never asked for the
Child to reside with him after the Mother’s passing.
Shortly after the funeral, Petitioner filed the instant
petition.
The Child resided with Petitioner and her family
during the summer of 2015 and Petitioner invited
Respondent to visit with the Child at her home and
on planned vacations. Petitioner testified that she
facilitated the time Respondent spent with the Child
at her residence by making sure he could engage the
Child with crafts, toys, and in her pool. Some time in
June or July 2015, Respondent moved to White Plains
from Manhattan. Petitioner testified that in August
2015, Respondent came to her home to spend time
with the Child and they were in her pool. When
Respondent arrived, she observed him stumble and
fall, and that he had no idea he was bleeding from
his elbow in the pool.
The Child’s maternal grandmother became ill in
October 2015 and passed away in December 2015.
Petitioner enrolled the Child in therapy with Dr.
Behrman to assist the Child in dealing with the difficult
loss of the Mother and the maternal grandmother.

App.l5a

Petitioner testified that the Child met with Dr.
Behrman weekly and that she and Mr. Haims met
with Dr. Behrman monthly. She discussed with Dr.
Behrman, topics such as the Child’s grief, the Child’s
nightmares and night terrors, and regressive behavior
the Child was exhibiting after her court ordered
FaceTime access with Respondent.
When the Mother passed away, Petitioner chose
the Child’s medical providers in Connecticut, and
enrolled the Child in Country Kids Day School and
thereafter Pound Ridge Elementary kindergarten
classes. She testified that she ensured Respondent
received information from the school regarding the
Child by giving the school Respondent’s information.
Petitioner also testified that she informed Respondent
that she hired a tutor to work with the Child on her
literacy and writing skills because the Child was
lagging in sight words and reading. Petitioner enrolled
the Child in music, dance, and gymnastic classes.
Petitioner testified she made attempts to foster the
Child’s relationship with Respondent by providing
him with information regarding the Child’s education
and therapy, and prepared the Child for her supervised
visits with Respondent. Petitioner acknowledged that
she did not always provide him with the Child’s report
cards or inform him of school trips, holidays, or parentteacher meeting bulletins, or that she enrolled the
child in extracurricular activities. Petitioner stated that
she only makes positive statements about Respondent
and created, for the Child, a board of pictures of
Respondent, the Mother, and the maternal grand­
mother.
Petitioner did not believe Respondent had empathy
for the Child or had the ability to put the Child’s

App.l6a

needs above his own. Petitioner stated that Respondent
has yet to inquire about the Child’s medical appoint­
ments, progress in therapy, enrollment in school, or
about the Child’s extracurricular activities. Petitioner
testified that Respondent did purchase gifts for the
Child and provided money for the Child without her
having to ask for it. She testified to observing, on an
iPad purchased by Respondent for the Child, disturbing
text messages sent by Respondent to his current wife
regarding a move to Ohio and seeking vengeance
against Petitioner’s family.
Petitioner did not inform Respondent about the
guardianship petition because she was scared he
would take the Child from her and acknowledged
that she did not observe the acts of violence she alleged
Respondent committed in her petition. Petitioner also
acknowledged that she was not aware Respondent had
parenting time alone with the Child after Respondent
and the Mother separated. Petitioner testified that
she observed Respondent act affectionately with the
Child prior to his supervised visits. She testified that
in order for her to feel comfortable with Respondent
having unsupervised visits, he would have to show
empathy for the Child, acknowledge her relationship
with the Child, and make more of an effort to
integrate himself in the Child’s life.
Lowell Haims’ Testimony
Mr. Haims is the husband of Petitioner, brotherin-law of Respondent, and maternal uncle of the
Child. Mr. Haims thought Respondent had a problem
with alcohol but never confronted him about it. Mr.
Haims was aware that Respondent was not present
at the Child’s first birthday party because Respondent

App.l7a

was in a rehabilitation facility. Mr. Haims testified that
Respondent and the Mother separated at the end of
2012, after the Child’s first birthday. Mr. Haims also
testified that after Respondent and the Mother
separated, and before her passing, he did not observe
Respondent interact with the Child very much, but
was aware that Respondent spent time alone with
the Child. When the Child had her third birthday
party in 2014, Respondent was present, but appeared
bloated, his eyes were half shut, and movements
lumbered.
After the Mother passed away on June 9, 2015,
Respondent signed a waiver and consented to Mr.
Haims acting as administrator of the Mother’s estate.
Mr. Haims testified that it was Respondent’s idea
that the Child remain in his home for the summer of
2015, and that he, Respondent, needed to “step up.”
When the Child first arrived at his residence, after
the Mother’s passing, the Child acted babyish, would
drink milk from a bottle, ate little food and would
sleep between him and Petitioner because she would
not sleep in her own bed. Mr. Haims also testified
that after Respondent informed the Child of the
Mother’s passing in 2015, the Child initially reacted
to the news by wondering where the Mother was and
cried for approximately two weeks thereafter. Mr.
Haims did not think Respondent was acting in the
Child’s best interest when he informed her of the
Mother’s passing in the manner he did.
Between June and August 2015, Respondent freq­
uently came to Mr. Haims’ home for approximately five
to eight hours on a Saturday or Sunday to visit with
the Child. Mr. Haims observed Respondent injure
himself in his pool and testified that Respondent was

App.l8a
not aware that he was bleeding from his elbow. Mr.
Haims testified that on many occasions when Respond­
ent would visit with the Child, Respondent arrived
seemingly intoxicated, he slurred his speech, and his
movements appeared lumbered. Mr. Haims never
confronted Respondent about appearing intoxicated
or asked him to leave because he was afraid Respond­
ent would take the Child from his home. Mr. Haims
testified that neither he nor Petitioner felt comfortable
leaving Respondent alone with the Child.
Mr. Haims testified that the Child was enrolled
in therapy with Dr. Behrman because she was having
a difficult time dealing with the loss of both the
Mother and the maternal grandmother. Mr. Haims
stated that the maternal grandparents resided in his
home for approximately one and one-half months
before the maternal grandmother passed away and
that the Child saw the grandmother every day. Mr.
Haims testified that he would convey Dr. Behrmans’
thoughts and recommendations on how to aid the
Child with her grief to the Respondent.
Mr. Haims believed that he and his family are
best suited to provide the Child a safe and loving
home environment because he and Petitioner are
suitable to meet the Child’s needs. Mr. Haims also
believed that Respondent needs to demonstrate sobriety
before he is ready to care for the Child. Mr. Haims
recalled an incident when the Child was jumping on
a banquette in the kitchen and Respondent told the
Child to stop. Mr. Haims testified that the situation
escalated when Respondent physically restrained the
Child and she ran out of the room to Petitioner for
comfort. Mr. Haims testified that he and Petitioner

App.l9a

usually discipline the Child by reasoning with her
and did not see the need for physical force.
Mr. Haims testified that in 2012, Respondent
had wanted him to keep a Jeep in his garage. Mr.
Haims observed an unlocked rifle in the back seat of
the Jeep which he put in a storage unit until he turned
it over to the Pound Ridge Police Department in the
fall of 2015. Mr. Haims believed that Respondent had
more guns but acknowledged that he did not have
any first hand knowledge.
Howard Schwell’s Testimony
Howard Schwell (hereinafter “Mr. Schwell”) is
the maternal grandfather of the Child and father of
Petitioner. Mr. Schwell testified that in or around
Thanksgiving or Christmas 2012, Respondent admitted
that he had a drinking problem, mostly at night, but
thought it did not affect his job. Mr. Schwell also
testified that Respondent told him he drank during
the day, and at work, and hid liquor under his desk.
In December 2012, Mr. Schwell rushed Respondent
to White Plains Hospital and Respondent was diag­
nosed with pancreatitis. Although Mr. Schwell initially
recalled that Respondent was hospitalized for three to
four weeks, he later acknowledged on cross exami­
nation that the hospitalization could have been for
three to four days.
The Child resided with Mr. Schwell and the
maternal grandmother in White Plains in the Fall of
2014 so that the Child could attend pre-school in
White Plains, and the Mother would visit with the
Child during the week and on weekends. Mr. Schwell
would take the Child to and from school and to the
Child’s activities. During the time the Child lived

App.20a
with the maternal grandparents, Respondent called
approximately three to four times, but never visited
and was not involved in transporting the Child to or
from school. When the Child returned to the Mother’s
residence, Mr. Schwell would visit the Child up to six
times per week. Mr. Schwell testified that he observed
Respondent to be under the influence of alcohol at the
Child’s third birthday party. He observed Respondent
shaking convulsively, perspiring, and unaware of what
was going on.
Mr. Schwell testified that when the Mother passed
away in June 2015, Petitioner immediately stepped
in to care for the Child and obtained professional
help to address the Child’s mental health and emotional
needs. Respondent was involved in planning the
funeral and Mr. Schwell and Respondent had a lot of
contact regarding purchasing plots for the family and
finances. Mr. Schwell testified that the Mother’s
passing allowed him and Respondent to bond, but
events that occurred over the summer caused him
concern. Mr. Schwell recalled an occurrence when he
and Respondent spoke over the telephone in June
2015, and Respondent was incoherent, admitted he
was drunk, and said to Mr. Schwell that it was the
“last time I’m going to tell you that I drank ... I do
not want you to hold it against me in the future.” Mr.
Schwell had serious concerns for the Child’s safety
and believed the Child would be in danger if
Respondent had custody of her.
Mr. Schwell recalled several incidents in July 2015
when Respondent’s behavior concerned him. One was
an incident in Petitioner’s pool when he observed
Respondent stagger into the shallow end of the pool
and not realize the blood on his arm. He recalled

App.21a

another incident at a restaurant called Villa Roma
wherein Respondent smelled of alcohol. Mr. Schwell
testified that he was also drinking alcohol that
evening, and Respondent had to spend the night at
Mr. Schwell’s home and apologized for having an
accident in the bedroom on the bedspread. He described
Respondent’s hygiene as deplorable. Mr. Schwell
recalled another incident wherein the family visited
Callicoon, New York and he and Respondent were
drinking. Mr. Schwell acknowledged that although
he believed Respondent was an alcoholic, he drank
with Respondent.
Mr. Schwell testified that Respondent had stated
that he owns a rifle and has a pistol in his apartment
that is not registered, but Mr. Schwell never saw it.
Mr. Schwell took the rifle to the police department
but also admitted that he too, owns a rifle that is not
registered.
Mr. Schwell testified that if Respondent had
custody of the Child, he would not be able to sleep
and would be up all night worrying about the Child’s
physical and emotional safety. Mr. Schwell believed
that Respondent would cause the Child permanent
damage. See, Exhibit B.
Dr. Behrman’s Testimony
Dr. Lauren Behrman was qualified as an expert
in early childhood and adolescent psychology. See,
Exhibit 42. Dr. Behrman met with and has treated the
Child since November 2015 and has had approximately
35 sessions with the Child. She testified that usually,
Petitioner or Mr. Schwell will bring the Child to her
sessions. Dr. Behrman described the Child as a little
late developmental^, but vibrant, engaging, chatty,

App.22a
playful, and active. Dr. Behrman testified that the
Child needs a lot, but is thriving while in emotional
recovery, healing from the loss of the Mother and
maternal grandmother. Dr. Behrman testified that
the Child worries about losing someone else, and had
nightmares and bad dreams. She described the Child’s
sense of time as 10 days being the equivalent of 10
years.
Dr. Behrman testified that the Child is attached
to Petitioner and does not initiate conversation about
Respondent. Dr. Behrman stated that she exchanged
emails with Respondent and met with him on approx­
imately two occasions. Dr. Behrman testified that the
first time she met with Respondent was in April 2016,
after she received a letter from him and made an
appointment with him immediately thereafter. When
she met with Respondent, he was concerned about
the Child but was not specific or detailed regarding
his concerns. Dr. Berman thought Respondent lacked
empathy regarding the Child. Dr. Behrman defined
empathy in the context of having the ability to see
the world through the eyes of the Child. Dr. Behrman
also testified that Respondent told her he thought
the Child would be better off with a nanny in his
apartment rather than with Petitioner. During her
testimony, Dr. Behrman described Petitioner as tremen­
dously empathetic to the Child and that Petitioner
expressed concern for the Child’s mental health.
Dr. Behrman testified that, in her April 2016
conversation with Respondent, she suggested meeting
with him monthly to help the Child deal with her
loss, but Respondent did not follow through. Dr.
Behrman refuted that Respondent expressed to her
his inability to meet with her monthly because of

App.23a
financial hardship, and that if he had, she would have
worked with him. Dr. Behrman did not see Respondent
again until November 2016, at his initiation, and
attempted to discuss methods for him to connect and
engage with the Child, and he seemed receptive. Dr.
Behrman did not suggest that Respondent attend
any sessions with the Child but would have if
Respondent had engaged more with her.
Dr. Behrman believed that Respondent did not
understand the Child’s feelings of loss and that she
would not thrive with him if she were separated from
Petitioner. She described feeling a coldness from
Respondent regarding the Child’s feeling of loss of the
Mother and maternal grandmother. Dr. Behrman did
not feel that the Child was suffering a loss of Respond­
ent because the Child was able to see him weekly. Dr.
Behrman testified that Respondent stated to her that
he believed the best outcome for the Child would be
to live with him. Dr. Behrman believed that it would
be difficult for the Child because she has suffered two
losses already, and the Child would be devastated if
she were no longer living with Petitioner. She stated
“I think it would have an impact on her—the course
of her development.” Dr. Behrman testified that she
thought it would be wonderful for Respondent to have
the best relationship possible with the Child, but
recommended that the parties come together without
conflict. Dr. Behrman testified that it is her opinion
that relationship and attachment are more important
than biology.

App.24a

Letitia Halpern, Andi Warmund, Christopher
Reilly, and Marguerite Defonte
Letiticia Halpern (hereinafter “Ms. Halpern”)
was the Child’s pre-school teacher in the 2015/2016
school year. Ms. Halpern testified that the Child
attended school every weekday except for Wednesdays.
She described the Child as initially shy, but cute,
sweet, and loving. Ms. Halpern testified that Petitioner
usually transported the Child to and from school.
Petitioner was involved in school events, but Ms.
Halpern did not reach out to Respondent to inform
him of the same. Ms. Halpern acknowledged on cross
examination that she had conversations with Petitioner
regarding the court proceedings.
Andi Warmund (hereinafter Ms. Warmund”) and
Marguerite DeFonte (hereinafter “Ms. DeFonte”) are
friends of Petitioner and offered testimony regarding
their observations of Respondent and the Child. Ms.
DeFonte testified that she was working at Villa
Roma in July 2015 when she observed Respondent
drinking alcohol by the pool while the Child was
trying to get his attention. She stated that later that
evening she observed Respondent drink his and her
husband’s alcoholic drinks and that Respondent
appeared intoxicated. See, Exhibit C. Ms. Warmund
described the Child as sweet, funny and vivacious.
Ms. Warmund testified that she was at Petitioner’s
residence in August 2015 and observed Respondent
stagger into Petitioner’s pool and that he was bleeding.
Ms. Warmund described Respondent as disheveled
and that his speech was slurred.
Christopher Reilly (hereinafter “Mr. Reilly”)
testified that he met Respondent through the Mother
when she and Respondent were dating. Mr. Reilly

App.25a

testified that he had a social relationship with Respond­
ent. In the Fall of 2011 just prior to the birth of the
Child, Respondent approached him for help with his
drinking problem because he was having difficulty
staying sober. Mr. Reilly testified that at the time, he
had been sober for six months and took Respondent
to an Alcoholics Anonymous (hereinafter “AA”) meeting.
Mr. Reilly stated that at the time of his testimony he
had been sober for five and one-half years with the
help of an AA sponsor. He stated that he suggested
that Respondent attend AA meetings and obtain his
own sponsor. Mr. Reilly also testified that the last
time he saw Respondent was at the Mother’s funeral
and that Respondent appeared intoxicated and had
difficulty walking.
Raymond Griffin-Rebuttal Testimony
Raymond Griffin, PhD, CASAC (hereinafter “Dr.
Griffin”) is licensed and credentialed in the field of
substance abuse and addiction for the past 39 years
and was qualified as an expert in the field of addiction
and substance abuse. Dr. Griffin testified that he
interviewed Respondent, Petitioner, Respondent’s psy­
chiatrist Dr. Centurion, and other collateral sources. Dr.
Griffin spoke with Dr. Centurion on November 23,
2016 and, as of that date, Dr. Centurion stated she last
saw Respondent on September 14, 2016. See, Exhibit
45. Dr. Griffin testified that Dr. Centurion stated she
usually saw Respondent every three months, some­
times more, sometimes less. Dr. Griffin also testified
that Dr. Centurion stated she informed Respondent
that she had concerns about him, that an award of
custody of the Child was not likely, and that
Respondent had no level of attachment to the Child
except a narcissistic one. Dr. Centurion stated she

App.26a
informed Respondent that removing the Child from
Petitioner would not be good because she did not feel
Respondent could be a single parent. Dr. Griffin
testified that Dr. Centurion stated she informed
Respondent that psychological testing would be helpful
for him.
Respondent informed Dr. Griffin that Mr. Andrew
Park was Respondent’s therapist and AA sponsor
until Mr. Park passed away. Respondent stated that
he started attending Smart Recovery one time per
week and AA two to three times per week in lower
Manhattan in July 2016. Dr. Griffin described Smart
Recovery as an alternative program to AA which is
cognitively as opposed to spiritually based where
participants work through the recovery process on
their own. Dr. Griffin recommended that Respondent
take advantage of an intensive outpatient program
and obtain a therapist because of Respondent’s relapse
history and Respondent’s statement that he tends to
isolate himself. Dr. Griffin testified that outpatient
programs provide therapeutic intervention and give
the patient tools to replace alcohol and that the
outpatient program would benefit Respondent by
providing him more insight into his behavior and
thinking, and help him deal with the loss of the Mother.
Dr. Griffin stated that he tested Respondent for
alcohol throughout the pendency of the fact-finding
hearing and Respondent consistently tested negative,
however, Respondent could have been drinking during
the testing period. See, Exhibit H. Dr. Griffin also
stated that at the time he issued his forensic report
to the Court, Respondent was abstinent, but not sober.
Dr. Griffin testified that Respondent suffered from
late stage alcohol use disorder and that Respondent

App.27a

needed significant treatment and monitoring due to
his long history of alcohol abuse and relapses after
attending rehabilitative programs. At the time of Dr.
Griffin’s testimony, Respondent had not been enrolled
in therapy for nine months, saw Dr. Centurion every
three months, and attended Smart Recovery and AA.
Dr. Griffin testified that Respondent would not get
much out of AA if he was not committed to the
principles of the program by working through the 12
steps of recovery with a sponsor. Dr. Griffin also
testified that a person not committed to a recovery
program would have an increased risk of relapse.
See, Court Exhibit 2.
Petitioner’s Exhibits
In addition to the other exhibits admitted into
evidence, the Court admitted the following exhibits
into evidence on consent of all counsel.
Exhibit 38
Records from White Plains Hospital Emergency
Room-Respondent was admitted from December 25,
2011 through December 29, 2011. Respondent’s prin­
cipal diagnosis was acute pancreatitis and secondary
diagnosis was, inter alia, anxiety and alcohol abuse.
Respondent described his alcohol use as drinking one
pint of alcohol daily. Respondent was prescribed
Lopressor, Xanax, and his prescription for Wellbutrin
was continued.

Exhibit 40
Records from Gracie Square Hospital-Respondent
was voluntarily admitted from November 9, 2012
through November 14, 2012 due to feelings of anxi-

App.28a

ety. Respondent was described as having a history of
depression, alcohol dependence and anxiety. Respond­
ent admitted to drinking one-half liter of vodka daily
and one-half bottle of whisky and rum daily. Respond­
ent also admitted to drinking daily for approximately
six months and at work. Respondent stated that he was
required by his job to attend treatment. Respondent
also stated that he had tried Antabuse and Waltrexone
approximately three years prior to his admission to
the hospital. Recommendations included one-to-one
and group counseling, medication management and
out-patient rehabilitation treatment. Respondent was
discharged to a residential treatment program at
Endeavor House.
Exhibit 8
Records from Endeavor House-Respondent was
admitted from November 14, 2012 through December
6, 2012. Respondent admitted that he was caught
drinking while at work. Respondent described drinking
one-half liter of vodka daily while taking Xanax
which presented problems in his marriage. Further,
Respondent stated that the men on the maternal side
of his family had a history of alcoholism. Respondent
described his weaknesses as lack of insight and poor
impulse control. Respondent stated that he attended
therapy with Dr. Leslie Seiden between 2011 and
2012, but terminated the sessions because he did not
believe they were helping. Respondent was diagnosed
with alcohol dependence with physiological depend­
ence and depressive disorder not otherwise specified.
Recommendations for aftercare included attending a
residential treatment center and alcohol/narcotic
anonymous meetings, integration into a 12-step pro­
gram, coping skills and therapy. Respondent’s attitude

App.29a

was described as indifferent and he refused aftercare
assistance.

Exhibit 13
Records of Dr. Centurion-On January 14, 2013,
Respondent was referred to Dr. Gabriela Centurion,
M.D. by his therapist Mr. Andrew Park, PhD for a
psychiatric evaluation. Respondent stated that he was
discharged from a rehabilitative facility in November
and that his last drink was the day prior. Respondent
stated that he started drinking in college and he
drank heavily daily during his stay in Iraq. Respondent
stated that his alcohol use resulted in a diagnosis of
pancreatitis, separation from the Mother and the
Child, and that he was confronted by the partners and
other associates at the firm where he was employed.
Respondent also stated that he tried Alcoholics Anony­
mous and that he “hated it.” Dr. Centurion stated
that Respondent was prescribed Antabuse and that
he did not take it. Dr. Centurion also described
Respondent as sad, anxious, alcohol dependent and
as having a depressive disorder not otherwise specified.
Dr. Centurion’s records date up to January 13, 2015
and relate mostly to medication management.
Exhibit 12
Records from New York Presbyterian Weill Cornell
Hospital-Respondent was admitted from December
30, 2014 through January 5, 2015. Respondent was
referred for a gastroenterology consult. Respondent
is described to drink “at least liter of vodka daily for
at least the past 3-4 years.” Respondent was reported
to have tried inpatient rehabilitation and refused
treatment therapy. Respondent was also reported to

App.30a
be going through a divorce and under financial stress
due to paying for the Child’s education. Respondent’s
prescription medications at the time were Ability,
Gabapentin, Wellbutrin and Zolpidem. The records
indicate Respondent was suffering from alcohol induced
pancreatitis and alcohol withdrawal. Respondent was
referred to New York Presbyterian Hospital Medical
Intensive Care Unit. Upon discharge from NYPHMICU Respondent stated that he was willing to
attend a short term rehabilitative program.
Exhibit 10 & 11
Records from Glenbeigh ACMC Healthcare
System-Respondent admitted from January 16, 2015
through February 13, 2015. During his stay at Glen­
beigh, Respondent was diagnosed with, inter alia,
alcohol dependence, insomnia, alcohol withdrawal, and
acute pancreatitis. Recommendations upon discharge
were attending 90 alcoholics/narcotics anonymous
meetings in 90 days, selecting a home group and
sponsor within 30 days, participating in social recre­
ational activities offered by the recovering community,
and attending an intensive outpatient program. Res­
pondent was described to be at high risk of relapse if he
did not follow through completely with the recom­
mendations and that he “did not verbalize a willingness
to continue his chemical dependency treatment at a
lower level of care, but did commit to AA/NA involve­
ment as recommended.”
Respondent’s Case
Christopher Dunnigan
Christopher Dunnigan (hereinafter “Mr. Dunni­
gan”) testified that he is an attorney who has worked

App.31a

for the United States Security Exchange Commission
(hereinafter “the SEC”) for 12 years and had worked
with Respondent while at the SEC and that he and
Respondent were friends. Mr. Dunnigan testified that
he and Respondent worked on a case together at the
SEC before Respondent left his employment there.
Mr. Dunnigan testified that in 2013, he made the
recommendation to the SEC to re-hire Respondent
even though he had not had contact with Respondent
since 2012, and was not aware that Respondent had
been terminated from his employment at Bracewell
Guiliani, LLP (hereinafter “Bracewell”). Mr. Dunnigan
testified that for the past three years, he had attended
social work events with Respondent and did not
observe him drink while at the events. Mr. Dunnigan
claimed that he never observed Respondent under
the influence, fall asleep at work or smell of alcohol.
Mr. Dunnigan acknowledged on cross examination
that he was not aware Respondent was diagnosed
with depression, was an alcoholic, or had gone to
rehabilitation facilities. Mr. Dunnigan also testified
that he did not know Respondent had plans to move
to Ohio. Mr. Dunnigan attended the funeral of the
Mother and did not smell alcohol on Respondent or
hear him slur his words. Mr. Dunnigan learned
Respondent was an alcoholic from his attorney nine
months prior to his testimony and Respondent never
discussed his condition with him. Mr. Dunnigan also
testified that he never saw Respondent with the
Child aside from the day of the Mother’s funeral.
Carmen Candelario
Carmen Candelario (hereinafter ‘Ms. Candelario”)
is a former detective and was trained in the admin­
istration of breathalyzers while employed at the Police

App.32a

Department. In 1999 she, and two others, founded
Supervised Visitation Experts (hereinafter “SVE”) and
she is currently the Director of the program. She
testified that there are two social workers employed
by SVE that provide a therapeutic component to
supervised Visits.
Ms. Candelario testified that, since December 3,
2015, she supervised Respondent’s access with the
Child. See, Exhibits 43 and 44. Before each supervised
visit commenced, Ms. Candelario conducted a Breath­
alyzer test on Respondent, two tests on the occasions
she believed he smelled of alcohol, and he tested
negative on each occasion. However, she smelled liquor
on Respondent on separate occasions including, Octo­
ber 16, 2015, July 19, 2016, and November 26, 2016.
Ms. Candelario testified that when she confronted
Respondent regarding her suspicions, Respondent
stated on October 16, 2015, that he drank the week
prior and, regarding November 26, 2016, Respondent
stated she was smelling mouthwash. Ms. Candelario
observed Respondent to have a flat affect when she
mentioned the smell of alcohol on him.
Ms. Candelario described the Child as needy for
attention, wanting to belong, a hoarder and having
separation anxiety. Ms. Candelario also explained
that when the supervised visits commenced, Respond­
ent was not affectionate or nurturing with the Child,
and that he did not tell the Child that he loved her
until recently. Ms. Candelario explained that the Child
expresses her love for Respondent and that she tells
him she misses him. Ms. Candelario described Respond­
ent’s body language when he exchanges the Child
with Petitioner as tight like he is upset and that he
ignores Petitioner. Ms. Candelario testified that the

App.33a

Child refers to Petitioner as “mom” and that Respond­
ent refers to Petitioner and Mr. Haims as “aunt and
uncle.”
Ms. Candelario testified that the visits primarily
occur at a library or Leapin’ Lizards, and Respondent
usually brings games, crafts, coloring books and
attempts to read to the Child, but she prefers his
attention. Ms. Candelario described two incidents
during the visits where she had to intervene so that
the Child would not be in emotional distress. One
incident occurred when Respondent gave the Child a
doll during the visit that he used to discuss the
Mother and the Child wanted to keep the doll at the
end of the visit. Respondent did not want the Child to
keep the doll because he wanted to bring the doll
back for another visit. Ms. Candelario testified that
the Child became upset and, ultimately, Respondent
let the Child keep the doll. Ms. Candelario did not
believe Respondent understood the importance of the
doll to the Child. The other incident occurred during
a period when Respondent was having FaceTime access
with the Child and Respondent brought a calendar to
the visit marking the dates when he would have
access with the Child, including the dates for FaceTime.
Ms. Candelario stated that she had to take the calendar
because the Child became anxious and obsessed over
making sure she did not lose the calendar or forget
the dates she was to have access with the Father. Ms.
Candelario testified that Respondent did not realize
that the calendar would cause the Child to be anxious.
Ms. Candelario testified that she did not think
Respondent was ready for unsupervised visitation or
custody of the Child. Ms. Candelario also did not
think Respondent’s intentions toward the Child were

App.34a
sincere nor that he understood the Child’s needs. Ms.
Candelario believed that Respondent should go to a
program for alcoholism, engage in therapy so his
therapist can interact with the Child’s therapist, and
go to counseling with Petitioner’s family to repair the
relationship. Ms. Candelario stated that she made the
aforementioned suggestions to Respondent approxim­
ately six times. According to Ms. Candelario, Respond­
ent rejected the idea of engaging in family therapy
because of the litigation and he did not want to go to
AA because he believed that, if subpoenaed, the
participants would reveal what he shared during
meetings. Ms. Candelario also testified that Respond­
ent would not contact Dr. Behrman prior to or after
the commencement of trial because he claimed he did
not know he was supposed to. Ms. Candelario also
testified that Respondent discussed moving to Ohio
because he does not have family in New York, but
she believed that it would be a disaster if the Child
moved from New York because she would suffer
another loss.
Dr. Centurion
Gabrielle Centurion, M.D. (hereinafter “Dr. Centu­
rion”) was qualified as an expert in adult psychiatry
and adult addiction. She testified that Respondent
has been her patient since January 2013. Dr. Centurion
could not recall whether she reviewed any of Respond­
ent’s medical history prior to or after she started
treating him and did not review Mr. Park’s records
during his treatment of Respondent. Dr. Centurion
also testified that Respondent’s regular therapist, Mr.
Park, passed away in either September or October of
2016. Dr. Centurion testified that Respondent is diag­
nosed with Depressive Disorder NOS. Dr. Centurion

App.35a

also testified that Respondent suffers from alcohol
addiction and that it is a medical condition. Dr.
Centurion testified that in January 2016, Respondent
committed to getting sober. She stated that Respondent
mentioned the Child often during his sessions and
that he was worried about his own health and ability
to care for the Child.
Dr. Centurion testified that in February 2016,
she prescribed Antabuse for Respondent. She stated
that Antabuse is a medication that does not diminish
the craving for alcohol, but makes a person feel ill if
alcohol is consumed while on the medication. Dr.
Centurion felt Antabuse was appropriate for Respond­
ent because he started keeping his appointments,
had the right motivation to commit himself to sobriety,
and had increased insight into his addiction in that
he acknowledged the damage alcohol did to him. She
believed Antabuse would deter him from drinking.
Dr. Centurion testified that there is no test to see if
Respondent is taking the medication as prescribed and
that there are no symptoms when a person ceases
taking the medication. Dr. Centurion testified that
she would not know if Respondent stopped taking the
medication because she relies on what her patients
report to her. She did acknowledge that if Respondent
stopped taking Antabuse, it would be possible he
would start drinking again and that his triggers are
stressful situations.
Dr. Centurion testified that Respondent attends
Smart Recovery which is a program that does not
involve the belief in a higher power. Dr. Centurion
stated that Smart based recovery teaches the addict
to identify triggers and how to avoid relapse. Dr.
Centurion testified that Respondent attended AA spo-

App.36a

radically in the Fall of 2013, 2014, and beginning of
2015. Dr. Centurion testified that, at the time of her
testimony, Respondent was attending Smart Recovery
approximately every two to three weeks and AA
every two weeks.
Dr. Centurion did not consider Respondent to be
the caretaker of the Child during the first year of the
Child’s life because he was an active alcoholic. Dr.
Centurion claimed that Respondent’s partner2 provides
stability for him. Dr. Centurion also testified that
Respondent would be a great parent and he appears
to love the Child and did not think that Respondent
would have a problem parenting the Child. Dr.
Centurion testified that Respondent mentioned briefly
in his sessions his anger and resentment toward
Petitioner, but did not discuss moving to Ohio or looking
for jobs out of state. Dr. Centurion stated that
Respondent discussed the comments she made about
him to Dr. Griffin and Dr. Abrams and he questioned
whether she believed he was a narcissist. Dr. Centurion
also testified that Respondent would probably benefit
from but does not need individual therapy. Dr. Centu­
rion’s records regarding Respondent’s case do not go
past January 13, 2015 and she could not explain why
her records were not produced after that date.
Philine Lehmann
Philine Lehmann (hereinafter “Mrs. Lehmann”)
is Respondent’s current wife. Mrs. Lehmann and
Respondent married during the course of the fact­
finding hearing on July 1, 2017, and live in White
2 Respondent married his then-partner, Philine Vega (now
Lehmann) after Dr. Centurion testified.

App.37a

Plains, New York in a two bedroom two bathroom
apartment. Mrs. Lemann testified that the second
bedroom is furnished for the Child. Mrs. Lehmann
testified that she met Respondent’s parents one time,
but they were not at the wedding; and that it was a
private affair with Respondent, the officiant, and a
photographer. She did not want Respondent’s parents
to stress him out.
Mrs. Lehmann testified that she has been a
history teacher for the past 14 years at a Catholic
high school in Bronx, New York. She also testified
that she met Respondent on an online dating website
on January 1, 2016, and described Respondent as kind,
humble, and emotionally guarded without an ego.
Mrs. Lehmann testified that a couple of weeks after
they started dating, she became aware that Respondent
was an alcoholic and that he had been in rehabilitation
centers. She also testified that she was aware Respond­
ent had been hospitalized before but was not aware
of the reasons. Mrs. Lehmann stated that she never
observed Respondent drink alcohol or drive under
the influence of alcohol. Mrs. Lehman testified that
when a friend had brought alcohol to the apartment,
she discarded it.
Mrs. Lehmann testified that she is also aware that
since February 2016, Respondent has taken Antabuse
in addition to Wellbutrin and Ability, two anti­
depressant medications and met with his psychiatrist
one time every three months. Mrs. Lehmann testified
she does not know if Respondent drinks alcohol while
taking any of his medication. Mrs. Lehmann testified
that Respondent attends Smart Recovery and goes to
AA meetings two times per week even though
Respondent does not believe in a higher power or a

App.38a
sponsor to maintain sobriety. She testified that she
attended an AA meeting once to know how to help
and had no concerns about Respondent relapsing.
Mrs. Lehmann testified that she chose not to judge
Respondent about his past and was confident that he
learned from his mistakes.
Mrs. Lehmann testified that she never met or
spoke with the Child and did not know the Child’s
emotional or physical needs. Mrs. Lehmann believed
that Dr. Behrman was biased against Respondent
because she wanted the Child to stay with Petitioner.
Mrs. Lehmann disagreed with Dr. Behrman’s recom­
mendations but acknowledged that she does not know
the Child. She testified that she took an online parent­
ing class. Although Mrs. Lehmann initially stated
that Respondent did not take a parenting skills class,
on re-direct examination she claimed that she and
Respondent took the class together. Mrs. Lehmann
testified that she and Respondent plan to start their
own family. Mrs. Lehmann testified that Respondent
had a job interview for a position in Ohio but he was
not offered the position and has no current plans to
relocate.
Mrs. Lehmann testified that she and Respondent
plan to change the Child’s educational, medical, and
therapeutic providers, and have no plans regarding
the Child’s relationship with Petitioner if Respondent
obtained custody of the Child. Mrs. Lehman acknow­
ledged that she and Respondent had discussions by way
of text messages that they want to have the Child
baptized even though the Mother was Jewish and
that Respondent stated the baptism would be like
“pissing on [the Mother’s] grave.” Mrs. Lehmann also
recalled Responded stating over text message that he

App.39a
is seeking vengeance but claimed that she did not
recall the context of the conversation and that now is
not the ideal time for Respondent to establish a
relationship with Petitioner.
Respondent
Respondent is the father of the Child and brotherin-law of Petitioner. Respondent was born in Ohio
where his parents still reside, and has an older sister.
Respondent is a law school graduate and was admitted
to the New York State Bar in 2005. Respondent
started working at the SEC after law school and
currently works there as a senior counsel.
Between November 2006 and May 2007 Res­
pondent went to Bagdad, Iraq as a contractor for the
government to assist in drafting securities law and,
upon his return to the United States in 2007 or 2008,
he obtained a 9mm pistol. Although he never had a
carry permit, Respondent traveled across state lines
with it. Respondent acknowledged that the rifle Mr.
Schwell turned over to the Pound Ridge Police Depart­
ment belonged to him but he kept it in the Jeep
because it was broken.
Respondent was living in Virginia when he met
the Mother in February 2008 through a mutual friend.
Respondent and the Mother were engaged by February
2009 and he moved to New York in 2009. He and the
Mother married in September 2009 and separated in
February 2013. Respondent testified that when he
married the Mother, he was drunk at the wedding.
Respondent also testified that by 2010, he was
drinking pints of Vodka and his sneaking in drinking
shots of alcohol led to disputes with the Mother.
Respondent stated that his drinking led to issues

App.40a
with intercourse and in 2010 the Mother went through
in vitro fertilization. Respondent testified that when
the Child was born on November 25, 2011, he was
awestruck. He changed her diapers, fed, bathed and
swaddled her. Respondent testified that it was possible
he was drinking a week after the Child was born, but
he still cared for her until the week he was hospitalized
during Christmas 2011 at White Plains Hospital and
diagnosed with pancreatitis. See, Exhibit 38. Respond­
ent also testified that he did not recall what his
drinking pattern was when he cared for the Child.
Respondent did not have any issues with either him
or the Mother drinking in small amounts while caring
for the Child so long as it was not excessive. However,
Respondent could not quantify as to what he considered
excessive.
Respondent testified that as early as January
2012, he resumed drinking and that he saw no problem
in drinking small amounts. Respondent was working
for the SEC when the Child was born and he left his
employment in or around January/February 2012.
Respondent testified that in February 2012, he started
working for Bracewell, a private law firm, because
the Child had just been born and he needed more
money. Respondent had just started working at the
firm and broke his foot. He worked from home the
day after surgery and then went back to work. He
had to be placed on pain medication for three months.
He cared for the Child during the three months and
did everything for the Child except walk with her when
she woke up in the middle of the night. Respondent
testified that he drank during his employment at
Bracewell and the Child’s entire first year of life
except for the three months he was on pain medication

App.41a

and admitted that he was found to be intoxicated at
work. Respondent stated that Bracewell was not a
good fit for him because of the people, type of job he
had, and because he had anxiety. Between November
14, 2012 and December 9, 2012, Respondent did
not care for the Child because he was admitted to
Endeavor House in New Jersey and Gracie Square
hospital, and as a result, he missed spending time
with the Child for her first birthday and Thanks­
giving. See, Exhibit 40. Respondent testified that he
returned to work for the SEC in November 2013
and that he drank most nights after work. He also
testified he continued drinking until some time in
January 2016.
Respondent acknowledged that after his separation
from the Mother in February 2013, he drank heavily
through March/April 2013 and saw the Child almost
daily but did not drink prior to spending time with
the Child. Respondent testified that in March/April
2013, the Mother brought the Child to visit with him
and that he and the Mother were arrested over a
domestic dispute and cross temporary orders of protec­
tion were issued on behalf of each other. Respondent
testified that the Administration of Children’s Services
became involved and Respondent was not allowed to
see the Child. Respondent stated that in May 2013,
the temporary order of protection issued against him
was vacated and thereafter, he saw the Child five
nights per week at the Mother’s residence. Respondent
testified that he did activities with the Child such as
going to the Children’s Zoo in Central Park and spent
time with the Child on major holidays. Respondent
claimed that he did not celebrate major holidays with

App.42a
the Mother’s family after the separation because he
believed he was not welcome.
Respondent testified that while the Child lived
with the maternal grandparents in November 2014,
and after he returned to work at the SEC, he saw the
Child two to three days per week and sometimes on
weekends at the Mother’s residence in New York
City. The Child never slept at his home because
“there was never a need for that” and he did not have
a crib. He claimed he would spend the night at the
Mother’s residence up until right before the Mother’s
death in 2015. Respondent also testified that when
the Child resided with the maternal grandparents,
he was involved with the search for pre-schools.
Respondent testified that by November 2014, he
moved within two blocks from the Mother’s home to
help care for the Child. He described the Child as a
picky eater, and that the Child had a speech problem
and was enrolled in speech therapy. He picked up
and dropped off the Child for his access and to and
from the Child’s speech therapist. Respondent also
testified that from December 30, 2014 through January
5, 2015, he had another alcohol related pancreatic
attack and was hospitalized at Weill Cornell Medical
Center.
Respondent was in the District of Columbia when
the Mother suffered from a brain aneurysm on May
24, 2015. Respondent stated that Petitioner called to
inform him of the news and that she had taken the
Child to her residence. Respondent testified that he
was concerned about what the Child saw when the
Mother had the brain aneurysm. Respondent also
testified that Petitioner was very respectful in allowing
him to the see the Child and the Mother and that

Vrl

App.43a
they had worked out a schedule for him to do so
while the Mother was ill.
Respondent testified that when the Mother passed
away on June 9, 2015, he was involved in the funeral
planning and picking plots. The entire family, including
him, purchased plots and attended the Mother’s
funeral. Respondent pulled the Child aside at Petit­
ioner’s residence and informed her of the Mother’s
passing by stating that the Mother “was sick and
died,” that the Child was loved by all, and that she
would be taken care of. Respondent wanted to be the
person that informed the Child of the Mother’s passing
because he believed the Child would be overwhelmed
with the entire family present. Respondent stated
that he did not observe the Child cry upon hearing
the news.
Respondent testified that between June 2015 and
the end of August 2015, he visited the Child regularly
on either a Saturday or Sunday. See, Exhibit E.
Respondent also testified that on Father’s Day in
2015, he went to Villa Roma for a joint birthday party
held for him and Mr. Schwell and that they both
consumed alcohol on the porch. Respondent refuted
Ms. DeFonte’s testimony that the Child was at Villa
Roma on July 18, 2015 and that he ignored the Child
while he was drinking by the pool. While the Child
resided with Petitioner in 2015, he “nicked his elbow”
in Petitioner’s pool and the maternal grandmother
had to bring it to his attention. Respondent testified
that in August 2015, he observed the Child jumping
on a bench at Petitioner’s residence and that he
picked up the Child to put her down, but the Child
did not want to be put down and he held onto her
shoulders, and then let her go.

App.44a
Respondent testified that when he drank in the
presence of Petitioner’s family, he took care not to
consume more alcohol than Mr. Schwell because he
did not want the family to think he was overdoing his
drinking. He did not believe that as an alcoholic, one
drink was one too many because he had not entered
full recovery at that point. Respondent admitted on
the stand that he suffers from alcoholism and that he
also has been diagnosed with depression. Respondent
testified that boredom was always an issue regarding
his drinking and that he did not have a lot of
triggers. Respondent testified that he was a functional
alcoholic; he functioned at home, work, and caring for
the Child. He testified that he started attending
Smart Recovery, a variation of AA, weekly in New
York City on Fridays some time in 2015. He testified
that Smart Recovery focuses on thought process. He
also testified that he started going back to AA
sometime in January 2016. Respondent testified that
AA is not his program of choice because it focuses on
a higher power which is not an appropriate guide to
life. At the time of his testimony, he was attending AA
due to convenience in time and location. Respondent’s
only positive attribute to AA was that there are
“others going through this horrible disease and making
out with a much better life,” and that “gave [him] hope.”
Respondent testified that in January 2013, Dr.
Centurion prescribed Wellbutrin and Abilify for his
depression and that in February 2016, he was pre­
scribed Antabuse and takes it daily. He testified that
between July 2015 and November 2015, he began
abstaining from alcohol and committed to being sober
in February 2016 because of his fear that he would
lose the Child, and that he did not want to die from

App.45a
the disease. Respondent testified that he will stop
taking Antabuse when recommended by Dr. Centurion
and that he completely relies on her advice. In July
2016, Respondent submitted himself to the Court
Ordered CASAC forensic evaluation conducted by Dr.
Griffin and was tested weekly through the conclusion
of the fact-finding hearing. Respondent disagreed
with Dr. Griffin’s recommendation that he should
submit himself to an intensive out-patient program
in that it is “not necessary.” Respondent also testified
that he initially searched for another therapist after
Mr. Park, his regular therapist passed away. Respond­
ent testified that he does not discuss his depression
with Dr. Centurion, and does not feel like he needs
individual therapy after a conversation he had with
Dr. Centurion and because he does not feel depressed
anymore. At the fact-finding hearing, Respondent
testified that sobriety is a mental state of mind and
he considers himself to be sober because he has no
desire to drink. Respondent testified that he wants to
be the best husband and father he can be. Respondent
admitted that his drinking negatively affected the
Child.
Respondent’s Saturday supervised visits with the
Child commenced in November 2015 and he has only
missed three visits. Respondent also had FaceTime
visits with the Child one time per week between
December 2016 and January 2017 and phone calls
with the Child since. Respondent testified that his
supervised visits primarily occurred at the Greenburgh
Library, Kensico Park, the Nature Center, Leapin’
Lizards or Mamaroneck Park. Respondent testified
that he was in communication with Dr. Behrman
between April 2016 and July 2017 and met with her

App.46a

six times and emailed a few times, but that Dr.
Behrman did not always respond to him. Respondent
reached out to Dr. Behrman and inquired about the
Child’s reaction to his having FaceTime visits with
her, and if the Child spoke about the Mother and
maternal grandmother. Respondent testified that
since March 2017, he has spoken with Dr. Behrman
monthly and asked Dr. Behrman about him spending
more time with the Child.
Respondent testified that since the Child moved
in with Petitioner, he had many conversations with
Petitioner about the Child and his desire for the
Child to reside with him, and that he provided
Petitioner with possible dates for the transition to
take place. Respondent testified that Petitioner offered
to keep the Child until he found a bigger apartment
than the one he had in Manhattan. After Respondent
obtained a bigger apartment in White Plains, contacted
potential pre-schools, and interviewed possible sitters,
he was served with the instant petition. Respondent
did not deny that Petitioner’s concerns regarding his
drinking were rational, but testified that he has not
reached out to Petitioner or made efforts to work
with her because of the litigation. Respondent testified
that nothing bad happened as a result of his drinking
and that his drinking was not directly linked to
Petitioner filing the petition against him.
Respondent testified that although he does not
know who the Child’s pediatrician or dentist are, he
will transition the Child to new ones. Respondent
also testified that he will slowly transition the Child
to a new school in the White Plains school district
and to a new therapist. Respondent plans to have the
Child baptized because he believes she should know

App.47a

both sides of her religion. Respondent testified that
he has no current plans to relocate from White Plains.
He had a job interview in Ohio, but he did not get the
position.
Respondent did not recall making any statements
regarding vengeance against Petitioner. Respondent
testified that he plans to work with Petitioner to
transition the Child to his custody but he also
testified that he resents Petitioner and that he was
angry when he stated that he was “raising a little
girl who doesn’t give a shit about them.” Respondent
testified that he will allow Petitioner to spend more
time with the Child than he had during the pendency
of the case and that he has no problem with the
Child spending Jewish holidays with Petitioner’s
family. Respondent stated that it is his “God-given
right” for the Child to be raised by him, the Child’s
surviving parent, and that he has not been found to
be unfit. Respondent testified that Petitioner has not
made out her case that extraordinary circumstances
exist for him not to have custody of the Child.
Respondent testified that if he is not awarded custody
of the Child, he would want substantial parenting
time with the Child and to have as much influence in
her life as possible, and that he hoped that the Child
could develop a good relationship with Mrs. Lehmann.
Respondent’s Exhibit
In addition to the other exhibits admitted into
evidence, the Court admitted the following exhibit
into evidence on consent of all counsel.

App.48a

Exhibit G
Truth Verification Laboratories Report and Affida­
vit by Stephen Laub, forensic criminologist. Respondent
submitted to a hair and nail analysis on October 27,
2015. The Affidavit of Mr. Laub indicated that
Respondent’s hair samples were too short to test for a
six month period, but were long enough to test for a
three month period. The hair test results were negative.
The nail samples did not meet the protocol for testing
and were “insufficient to complete a forensic alcohol
test.”
Court Exhibit 1
Forensic Evaluation-Marc T. Abrams, PhD
On June 9, 2016, this Court issued an Order direct­
ing the parties to participate in a forensic evaluation
conducted by Marc T. Abrams, Ph.D. (hereinafter
“Dr. Abrams”). See, Order Appointing Neutral Forensic
Evaluator entered June 9, 2016 (Hahn, J.). On July
26, 2016, this Court received the forensic evaluation
report, released it to the parties’ counsel, and admitted
it into evidence as Court Exhibit 1 on consent of all
counsel. See, Order for Release of Forensic Report
entered July 27, 2016 (Hahn, J.).
Pursuant to the Forensic Evaluation Report, Dr.
Abrams met with Petitioner, Respondent, the Child,
and spoke with collateral sources, Mr. Haims, Mrs.
Lehmann, Andrew Park, LCSW, Dr. Centurion, Dr.
Behrman, and Ms. Candelario.
In his report, Dr. Abrams found Respondent to
have “global capacity in the High Average Range of
Intellectual Functioning. He did not exhibit any
signs or symptoms of any gross, neuropsychological

App.49a

deficits. Hand tremors, which appeared to be a side
effect of the medications that he was on, appeared to
negatively impact upon his processing speed with
hand motor tasks. He did not exhibit any signs or
symptoms of any psychotic or impulse control disorder.
He did exhibit signs and symptoms of major depression,
moderate, recurrent, with anxiety. Additionally, he
met the criteria for Alcohol Abuse in Remission and
Alcohol Dependence in Remission.” See, Court Exhibit
1 at page 9.
Although Dr. Abrams found that Respondent “did
not have concerns about [Petitioner] as a loving and
appropriate guardian to [the Child],” Dr. Abrams
also found that Respondent had a “hidden anger”
toward the Mother’s family and had a “hidden desire
to exact ‘revenge’ by removing them from [the Child’s]
life.” See, Court Exhibit 1 at pages 9, 10, and 12.
Respondent also presented as a person “capable of
thinking in a logical and sequential manner that was
consistent with affect as long as he was functioning
primarily in an emotionally-neutral environment.”
See, Court Exhibit 1 at page 10. Dr. Abrams also
found that Respondent has an “inadequate under­
standing of himself. This lack of adequate personal
awareness, made it more difficult for him to effectively
connect with others in order best understands how to
meet their needs (sic).” See, Court Exhibit 1 at page
11.
With regard to Respondent’s interaction with
the Child, Dr. Abrams found that Respondent found
a way to connect with her better than he did with Dr.
Abrams or other adults. Dr. Abrams also found that
Respondent “appeared to have an adequate unders­
tanding of [the Child’s] developmental, physical, social,

App.50a
educational and emotional needs.” See, Court Exhibit
1 at page 12.
Turning to Petitioner, Dr. Abrams found her to
have “global cognitive capacity in the Average Range
of Intellectual Functioning. She did not exhibit any
signs or symptoms of any gross neuropsychological
deficits. . . . She did not exhibit signs or symptoms of
any psychotic, anxiety, or affective disorder. The
level of anxiety [she did exhibit] did not meet the
criteria for either an adjustment disorder with anxiety
or some type of anxiety disorder.” See, Court Exhibit
1 at page 12. Dr. Abrams found that Petitioner
“appeared to be struggling with an underlying sense
of anger at having to he placed in a situation of
having to be a primary caretaker of her niece. She
appeared to be managing this anger in an appropriate
and healthy manner and there was no indication that
it resulted in any ‘bleed-over’ into how she managing
and raising [the Child] (sic).” See, Court Exhibit 1 at
page 13.
Dr. Abrams found that Petitioner “displayed a
good balance between attending to her needs and the
needs of others. Her sense of esteem was closely linked
to her meeting the needs of those around her and she
appeared to do so in a consistent and effective manner.”
See, Court Exhibit 1 at page 13. Dr. Abrams also found
that Petitioner “was capable of establishing and
maintaining empathic and emotionally close relation­
ship with others.” See, Court Exhibit 1 at page 13.
With regard to Petitioner’s interaction with the
Child, Dr. Abrams found Petitioner to be “encouraging
and educationally guided in her approach, utilizing
age-appropriate language.” See, Court Exhibit 1 at
page 14. Dr. Abrams found Petitioner to “have an

App.51a

excellent understanding of [the Child’s] physical,
developmental, social, educational, and emotional
needs.” See, Court Exhibit 1 at page 14. Dr. Abrams
agreed with Petitioner’s concerns regarding Respond­
ent’s initial involvement in the Child’s life but noted
that Respondent “was appropriately focused on dealing
with his grief, sobriety and depression for part of the
time.” See, Court Exhibit 1 at page 14. Dr. Abrams
found that there was ample evidence to support
Petitioner’s concerns regarding Respondents ability
to parent the Child and concerns about Respondent’s
sobriety and mental state. Dr. Abrams recommended
that Respondent needed “professional support to
learn how to better parent.” See, Court Exhibit 1 at
page 14.
In his interview with the Child, Dr. Abrams found
that she “appeared to function within the average
range of intellectual functioning” and that she exhibited
“some signs of anxiety related to attachment and
separation. This was an expected finding based upon
the losses that [she] had recently experienced.” See,
Court Exhibit 1 at page 15. Regarding familial
relationships, the Child believed that she had “three
mommies and two daddies” and that “two of her
mommies died and one did not.” See, Court Exhibit 1
at page 15. The Child “needed to feel as a member of
the Haims family, which provided a sense of constancy
and stability for her” but also “observed her clear
love for her father.” See, Court Exhibit 1 at page 15.
Dr. Abrams expressed the importance “for a child
to have a stable, loving home environment during the
early years of life. Providing [the Child] with an
empathic, emotionally connected, loving vibrant home
environment will be critical for her psychologic-

App.52a
al/emotional development in order to give her the
best chance possible to develop into a psychologically
healthy, interpersonally secure and connected, and
emotionally intact woman.” See, Court Exhibit 1 at
page 19. Further, Dr. Abrams found that Respondent’s
approach to rushing into a new relationship and the
use of Antabuse to “create the family life he so
desperately wanted to live” to be “problematic.” In
Dr. Abrams’ professional opinion “when a person
enters into sobriety, the person literally needs to
learn to understand [himself] in the absence of
alcohol. This person needs to literally relearn who
this person is and is not. This person needs to learn
how to own up to past, problematic behaviors and
learn to recognize aspects of one’s self that contribute
to dysfunctional life patterns.” See, Court Exhibit 1
at page 20.
Dr. Abrams stated that this is not an easy process
and requires “extensive and sustained professional
help from mental health care professionals.” Dr.
Abrams stated that typically, people should not engage
in a serious relationship within the first year of
sobriety because the person must recognize “how
to establish a successful, sober loving relationship
with one’s self in order to know how to develop a
healthy, sober, successful long-term relationship with
the another person [sic]. All these changes should
come before a new couple with this kind of history
learns how to place one’s needs and wants in
abeyance in order to be able to successfully recognize
and fully meet the needs of a new child.” See, Court
Exhibit 1 at page 20.
In Dr. Abrams’ opinion, Respondent was “not psyc­
hologically capable of doing all that he wanted to do

\

App.53a

in the time frame that he wanted without a significant
risk of his relapsing with drinking and becoming
seriously depressed.” Dr. Abrams also found that it
would be “profoundly irresponsible for anyone to
allow [the Child] to be exposed to another major set
of changes in caretakers, not even taking into account
the serious psychological consequences to her for any
failures on [Respondent’s] part in a role as a primary
caretaker.” See, Court Exhibit 1 at page 21.
Court Exhibit 2
Forensic Chemical Dependency EvaluationRaymond Griffin, PhD CASAC
On May 18, 2016, this Court directed Respondent
to cooperate with an alcohol and substance abuse
evaluation conducted by Raymond Griffin, PhD, CASAC
(hereinafter “Dr. Griffin”) and directed Dr. Griffin to
submit a written report to the Court. See, Amended
Order for Evaluation dated June 9, 2016 (Hahn, J).
On December 14, 2016, this Court received the
evaluation report, released it to the parties’ counsel,
and admitted it into evidence as Court Exhibit 2 on
consent of all counsel. See, Order for Release of
Evaluation entered December 15, 2016 (Hahn, J.).
Pursuant to the Evaluation Report, Dr. Griffin
interviewed and tested Respondent between July 25,
2016 and December 1, 2016, and conducted collateral
interviews with Petitioner, Mr. Haims, and Dr. Cen­
turion. Dr. Griffin also reviewed records regarding
Respondent’s hospital and rehabilitative facilities
admissions. Dr. Griffin reported that Respondent was
tested throughout the pendency of the evaluation,
that the tests he conducted on Respondent tested for

App.54a

“any alcohol in the system for five days,” and that
Respondent tested negatively. See, Court Exhibit 2
at page 4.
According to Dr. Griffin, Respondent stated that
his issues with alcohol began in college, became
heavy when he went to Iraq for six months in 2006,
and became heavy again when he met the Mother in
2008. See, Court Exhibit 2 at page 2. Dr. Griffin
reported that, except for the three months in 2012
that Respondent stated he did not drink alcohol,
Respondent stated that he drank heavily after the
birth of the Child and his sneaking alcohol affected
his marriage to the Mother. Dr. Griffin also reported
Respondent stated that due to his falling asleep
during a trial three times while he worked at Bracewell,
“the firm intervened and sent him to his first inpatient
alcohol rehab (sic) at the Endeavor House.” See,
Court Exhibit 2 at page 3.
Dr. Griffin also reported Respondent stated that
in the Fall of 2014, “he was confronted by his
supervisor at the SEC about his fatigue and lack of
focus. In October 2014 while watching his daughter,
his wife finds him asleep on the couch.” See, Court
Exhibit 2 at page 3. Dr. Griffin reported that after
Respondent’s discharge from Glenbeigh in 2015, Res­
pondent stated that “he started drinking immediately
but only one day a week” and that “he would never
drink on the day he had visitation with his daughter.”
See, Court Exhibit 2 at page 4.
Respondent stated to Dr. Griffin that during the
summer and fall after the Mother passed away,
Respondent drank approximately one day per week
until February 2016, when he resumed seeing Dr.
Centurion and started taking Antabuse. Respondent

App.55a

also stated that he would see Dr. Centurion once every
three months and Mr. Park weekly and Mr. Park also
served as his AA sponsor. Respondent told Dr. Griffin
that he attended “AA twice a week most of the time.”
Dr. Griffin reported that “the frequency of Respondent’s
therapy was opposite the recommendations of his
rehabilitative discharge plans; which recommended
that he enter an intensive outpatient program, that
he complete 90 meetings in 90 days in AA and that
he obtain a sponsor (other than a paid therapist) and
a home group.” Dr. Griffin reported that Respondent
has “only done this in a peripheral manner.” See,
Court Exhibit 2 at page 5.
Dr. Griffin found Respondent to be an intelligent
individual “who is obviously quite capable in his work
with the government” but questioned Respondent’s
desire to be healthy for the Child and resolve to
embrace recovery.” He found Respondent to be
“abstinent but.. . not sober.” Dr. Griffin reported his
concern that Respondent, with his “psychiatric diag­
nosis, family trauma issues and the stress of managing
a custody trial. . . had not seen his psychiatrist since
early September.” See, Court Exhibit 2 at page 6. Dr.
Griffin was also concerned that Respondent’s therapist,
Mr. Park, had passed away in September 2016 and
Respondent had “not sought a replacement therapist
for himself.” See, Court Exhibit 2 at page 6.
Dr. Griffin recommended, inter alia, that Res­
pondent “remain abstinent,. .. enter and complete
meaningful treatment in a licensed, intensive outpatient
treatment program, . . . [and] obtain a sponsor and
home group.” See, Court Exhibit 2 at page 6.

App.56a
Applicable Statutes and Case Law
It is well established that as between a natural
parent and a third person, a parent may not be
deprived of the custody of a child absent extraordinary
circumstances including “surrender, abandonment,
persisting neglect, unfitness and unfortunate or invol­
untary disruption of custody over an extended period
of time.” See Suarez et al. v. Williams, 26 NY.3d 440
(2015); Matter of Male Infant L., 61 NY.2d 420, 426427 (1984); Matter of Bennett v. Jeffreys, 40 NY.2d
543, 544 (1976); Matter of Denise K. v. King L., 136
A.D.2d 833, 834 (3rd Dept. 1988); see also, IMO
Gunther v. Brown, 148 A.D.3d 889 (2nd Dept. 2017);
IMO Cade v. Roberts, 141 A.D.3d 583 (2nd Dept. 2016).
The Court should consider ‘“the length of time
the child lived with the nonparent, the quality of that
relationship and the length of time the biological
parent allowed such custody to continue without
trying to assume the primary parental role.” See,
IMO Thompson v. Bray, 148 A.D.3d 1364 (3rd Dept.
2017). In evaluating the role the parent played in the
Child’s life, the Court should look at the totality of
the circumstances in determining the “quality and
quantity of the contact between the parent and the
Child and “whether the parent makes important
decisions affecting the child’s life, as opposed to
merely providing routine care on visits.” See, Suarez
at 449 and 451.
Further, “while the child’s relationship with the
[non parent] is significant, extraordinary circumstances
are not established merely by showing that the child
has bonded psychologically with the nonparent.” See,
IMO Esposito v. Shannon, 32 A.D.3d 471 (2nd Dept.
2006); see also, Thompson at 1365; Esposito at 473.

App.57a
Similarly, “a parent cannot be displaced merely because
another person would do a ‘better job’ of raising the
child.” See, IMO Bailey v. Carr, 125 A.D.3d 853 (2nd
Dept. 2015). The Court shall also consider whether
the removal of the child from the non-parent would
be “grave enough to threaten destruction of the
child.” See, Bennett at 550. Alcohol abuse on the part
of a parent, in addition to other factors, has been
deemed extraordinary circumstances. See, Herrera v.
Vallejo, 107 A.D.3d 714, 715 (2nd Dept. 2013).
Unless and until there is a showing of extrao­
rdinary circumstances, the question of the Child’s best
interest simply cannot be reached by the Court. {See,
Matter of Denise K. v. King L., supra; IMO Zamoiski
v. Centeno, 166 A.D.2d 781 (3rd Dept. 1990). With
regard to extraordinary circumstances and best
interest, “while the court was required to conduct an
evidentiary hearing concerning both issues . . . , and
it could have conducted separate hearings . . ., it was
not required to do so.” See, IMO Roseman v. Sierant,
142 A.D.3d 1323 (4th Dept. 2016) (internal citations
omitted).
It is well settled that “ [parenting time] is a joint
right of the noncustodial parent and of the child, and
the best interests of a Child lie in [her] being
nurtured and guided by both of [her] natural parents.”
See, Cervera v. Bressler, 50 A.D.3d 837 (2nd Dept.
2008) citing Weiss v. Weiss, 52 N.Y.2d 170, 175 (1981).
“Absent extraordinary circumstances, where [parenting
time] would be detrimental to the child’s well-being,
a noncustodial parent has a right to reasonable
visitation privileges.” See, Cervera at 839 citing
Twersky v. Twersky, 103 A.D.2d 775 (2nd Dept. 1984).
Moreover, the Family Court has jurisdiction to direct

App.58a

custody and access of minor children pursuant to
Family Court Act Section 651. In determining best
interests, the Court must consider the totality of the
circumstances (Friederwitzer v. Friederwitzer, 55 N.Y.
2d 89, 96) as well as assess the of credibility of the
witnesses (DiPaola v. DiPaola, 223 A.D.2d 589 [2nd
Dept 1996]). The Court must also consider “the quality
of the home environment and the parental guidance
the custodial parent provides for the child, the ability
of each parent to provide for the child’s emotional
and intellectual development, the financial status
and ability of each parent to provide for the child, the
relative fitness of the respective parents, and the
effect an award of custody to one parent might have
on the child’s relationship with the other parent.”
See, Esposito at 473 citing IMO Zafran v. Zafran,
3016 A.D.2d 468 (2nd Dept. 2003) and IMO Miller v.
Pipia, 297 A.D.2d 362 (2nd Dept. 2002).
Regarding a parent’s access with their child, a
court may “direct a [parent to submit to counseling or
treatment as a component of a visitation or custody
order. A court may not, however, ‘order that a parent
undergo counseling or treatment as a condition of
future visitation or reapplication for visitation rights.”
See, IMO Gonzalez v. Boss, 140 A.D.3d 869 (2nd Dept.
2016) (internal citation omitted).
The Court, in its discretion, may hold a hearing
with the child to gain insight as to the child’s wishes.
See, Lincoln v. Lincoln, 24 N.Y.2d 270 (1969); see
also, Jean v. Jean, 59 A.D.3d 599 (2nd Dept. 2009);
Eschbach v. Eschbach, 56 N.Y.2d 167 (1982); see
also, IMO Rudy et al. v. Mazzetti, 5 A.D.3d 777 (2nd
Dept. 2004); IMO Desroches v. Deroches, 54 A.D.3d
1035 (2nd Dept. 2008).

App.59a

CONCLUSIONS
The Court is cognizant of the fact that this
family has experienced enormous losses in a short
period of time. Respondent lost his wife, mother-inlaw, and therapist within the span of a year-and-ahalf. Petitioner lost her sister and mother within six
months, and the Child lost her Mother and grand­
mother within six months. At the epicenter of it all,
Petitioner, Respondent, and the Child lost the tie
that bound them together which was the Mother.
Petitioner and Respondent have been in litigation
for more than two years regarding custody of the
Child. The Court has observed the demeanor of the
parties and heard testimony from the parties and
many witnesses. The parties did not request a Lincoln
hearing and the Court did not conduct a Lincoln
Hearing with the Child due to her young age. Upon
review and consideration of the testimony and evidence
presented to this Court, the Court finds that extra­
ordinary circumstances exist to warrant a best interest
analysis in the instant matter, and there are several
compelling factors to support the granting of Petition­
er’s application to the extent stated herein.
The Court finds that Petitioner, Mr. Haims, and
Mr. Schwell all testified credibly regarding the
circumstances that caused Petitioner to file the instant
petition. Respondent’s actions prior to the death of
the Mother and his behavior at Petitioner’s home and
at family functions, after the Mother’s death, in
addition to the documentary evidence presented,
clearly show Respondent’s unfitness to parent the
Child when this case was filed.

App.60a
Respondent has not spent significant time with
the Child because he drank excessively and was
unable to control his alcoholism by becoming abstinent
and sober. By Respondent’s own admission, he lived
with the Child for approximately one year of her life
and not since she was at least 16 months old.
Further, Respondent rarely spent time with the
Child outside the home or presence of the Mother,
the maternal grandparents, or Petitioner. Respondent
produced no witnesses that observed his interactions
with the Child for any part of her life except for the
visits supervised by Ms. Candelario. Respondent has
never been the primary care taker of the child.
The Court does not find Respondent’s testimony
credible regarding the parenting time he spent with
the Child leading up the death of the Mother, but
rather finds itself serving. Respondent’s testimony
that he was not under the influence of alcohol when
he cared for the Child is inconsistent with other
evidence admitted at the fact-finding hearing indicating
that Respondent drank daily, during work and after
work. Respondent reported to Dr. Griffin that the
Mother found him asleep on the couch when he was
supposed to be watching the Child. See, Court Exhibit
2 at page 3. The Court finds that Respondent was not
forthright with the Court regarding the amounts of
alcohol he drank during the Child’s first four years of
life. When questioned about the amount, Respondent
would not quantify the amount he drank except to
state that it was all a big mistake he wished he had
not made. The evidence admitted during the fact­
finding, Respondent’s statements to Dr. Abrams, Dr.
Griffin, Dr. Centurion, and his testimony indicate
that his drinking negatively affected his marriage to

App.61a
the Mother. Respondent begrudgingly admitted that
his drinking negatively affected his relationship with
and his ability to parent the Child.
Respondent had been in and out of rehabilitation
facilities and hospitals since the Child’s birth with
the latest admission being six months prior to the
filing date of the petition. The evidence admitted at
the fact-finding hearing establish that, since the birth
of the Child, Respondent had been admitted to: White
Plains Hospital (12/25/11-12/29/11) and diagnosed with
acute pancreatitis as a result of his alcoholism;
Gracie Square Hospital (11/9/12-11/14/12) diagnosed
with depression, alcohol dependence, and anxiety;
Endeavor House rehabilitation facility (11/14/12-12/6/
12) where Respondent admitted to drinking approx­
imately a half liter of vodka daily; New York
Presbyterian Weill Cornell Hospital (12/30/14-1/5/15)
and diagnosed with alcohol induced pancreatitis and
alcohol withdrawal; and Glenbeigh rehabilitation
facility (1/16/15-2/13/15).
Upon discharge from the rehabilitation facilities,
Respondent was encouraged to attend AA meetings,
90 within the first 90 days of discharge, integrate in
a 12-step program, select a home group, obtain a
sponsor, enroll and engage in therapy, participate in
recreational activities in the recovery community, and
enroll in an intensive outpatient program. Respondent
was described as “indifferent” to recommendations
and his response was to refuse after care except to
find an AA program, even though he testified to not
believing in the tenants of AA. Respondent’s failure
to follow the recommendations of the rehabilitation
facilities was based upon his own feeling that he
could achieve sobriety on his own. Respondent has

App.62a
not built up any sober support group to achieve or
maintain sobriety, and that continues to date.
Respondent did not produce any witness or offer any
testimony that he took any responsibility, after his
discharges from the hospitals or rehabilitation facilities,
for his alcoholism. In fact, by his own testimony,
Respondent drank immediately after each of his dis­
charges from a rehabilitation facility. When Respond­
ent was discharged from Glenbeigh in February 2015,
he admittedly started drinking immediately after, his
release through January 2016, after the filing of this
petition. Respondent was not in a position to have
custody of the Child and had not taken appropriate
steps for the Child to reside safely in his home.
At the time the petition was filed, the Child was
not yet four years old, and had resided in Petitioner’s
home with Petitioner, Mr. Haims, and their two
children for three months after the Mother’s passing.
During the three month period and since the filing
date of the petition, Petitioner enrolled the Child in
extracurricular activities, school, and in therapy with
Dr. Behrman. Petitioner worked closely with Dr.
Behrman to assist the Child in dealing with her grief
over losing the Mother and the maternal grandmother.
Petitioner implemented the coping skills recommended
by Dr. Behrman for the Child to deal with her regress­
ive behaviors, night terrors, and need for belonging.
When the Child experienced educational difficulties
during the school year, Petitioner arranged for the
Child to have a tutor.
During the three month period the Child resided
in Petitioner’s household, Respondent admittedly
continued to drink. Respondent offered no testimony
regarding the steps he took to address his alcoholism

App.63a

during the Summer of 2015. Respondent’s statement
to Dr. Griffin that he never drank before he spent
time with the Child and Respondent’s testimony that
he only drank on occasion in the summer of 2015 was
belied by the testimony of Petitioner, Mr. Haims, Mr.
Schwell, and Ms. Warmund, that between the time of
the death of the Mother and the filing date of the
petition,
Respondent appeared at Petitioner’s residence
under the influence, staggered into the pool, and was
not aware that he nicked his elbow to the extent that
it started bleeding. Mr. Schwell testified to several
incidents that occurred in July 2015 where he observed
Respondent under the influence in and outside the
presence of the Child. The Court notes that Respondent
did not offer any testimony refuting Mr. Schwell’s
observations of his behavior or drinking during the
month of July 2015.
Respondent testified that he made Petitioner
aware that it was his intention to take custody of the
Child before she filed the instant petition. He also
testified that he was still drinking at that time.
According to Respondent, he reduced his alcohol
consumption during the summer of 2015, but testified
to drinking through January 2016. Respondent acknow­
ledged that although it “sounded bad,” he did not see
the issue with having a drink occasionally so long as
it was not excessive, however, Respondent could not
and would not quantify what an excessive amount
would be. Respondent testified that sobriety is a
mental state of mind and his testimony that he is
now sober is not persuasive to this Court.
The Court does not find the testimony or records
of Dr. Centurion to be credible. Dr. Centurion testified

App.64a

that Respondent’s former therapist, Mr. Park, referred
Respondent to her for treatment in January 2013
and that she has treated him to the present. Both
Respondent and Dr. Centurion testified that she sees
Respondent once every two to three months. Dr.
Centurion testified that her treatment of Respondent
is based on his self reporting. The Court finds it
troubling that she stated that she could not recall
whether she reviewed his medical records and there
was no indication in the records sent to the Court
that she had.
Further, Dr. Centurion testified that she prescribed
Respondent Antabuse in February 2016 based upon
his statements regarding his commitment to becoming
sober. The medication is designed to make the patient
feel ill upon consuming alcohol and Respondent is
prescribed to take it daily. Dr. Centurion testified
that there is no way to tell if Respondent is taking
the medication as prescribed.
Upon review of Dr. Centurion’s records regarding
her treatment of Respondent, which are only dated
through to January 13, 2015, most of Respondent’s
appointments centered on medication management.
Dr. Centurion had no explanation regarding the
absence of entries past January 13, 2015, notably
missing are the entries since Respondent committed
to obtaining sobriety in 2016. There are no notes for
the entire pendency of this case. In the entries
provided to the Court, there are no remarks regarding
Respondent’s continued therapy for depression and
anxiety. Respondent testified that he has not obtained
an individual therapist since his regular therapist,
Mr. Park passed away in September 2016, because
he does not feel depressed anymore and does riot dis-

App.65a
cuss his depression with Dr. Centurion. The testimony
offered by Dr. Centurion regarding Respondent’s
mental health was that although Respondent would
benefit from individual therapy, she did not feel he
needed it. Further, the Court finds that Dr. Centurion’s
testimony that she believed Respondent would be a
great parent and that Respondent would not have a
problem parenting the Child to be inconsistent with
her statements to Dr. Griffin during his forensic
evaluation.
Respondent did not offer any testimony rebutting
Dr. Griffin’s reporting of his accounts of his history of
alcoholism or the circumstances leading up to the
filing of the report with the Court. The Court finds
Dr. Griffin’s forensic report and testimony on rebuttal
to be credible. Dr. Griffin testified that took notes
simultaneously with his telephone conversation with
Dr. Centurion for the forensic evaluation report sub­
mitted to the Court. According to Dr. Griffin, in
November 2016, Dr. Centurion had concerns about
Respondent having custody of the Child. Dr. Centurion
did not believe that Respondent had any level of
attachment to the Child except for a narcissistic one,
and that removing the Child from Petitioner would
not be good because she did not feel Respondent could
be a single parent.
Dr. Griffin testified that he recommended Respond­
ent take advantage of an intensive outpatient program
and obtain a therapist because of Respondent’s relapse
history and Respondent’s statement that he tends to
isolate himself. However, there was no testimony from
Respondent that he followed the recommendations of
Dr. Griffin. Dr. Griffin continued to test Respondent
throughout the pendency of the fact-finding hearing

App.66a
and, although Respondent consistently tested negat­
ively, Dr. Griffin testified that it was still possible
that Respondent could have been drinking during the
testing period.
Respondent was also tested for alcohol by Ms.
Candelario before each of Respondent’s supervised
visits with the Child. In his closing, Respondent
stated that he wanted the Court to find Ms. Candelario,
the SVE supervisor, and his own witness, not credible.
Respondent stated that the only part of Ms. Candelario’s testimony that was credible was the negative
results of the Breathalyzer tests she performed on him
before each of his visits. Ms. Candelario is the only
witness who testified to recent and consistent
observation of Respondent with the Child. Her reports
were admitted into evidence without objection. The
Court finds Ms. Candelario’s testimony credible.
Ms. Candelario testified that she smelled alcohol
on Respondent on three separate occasions. Ms. Can­
delario stated that when she confronted Respondent
with her suspicion, he stated that he drank the week
prior to her smelling the alcohol in October 2015 and
that she was smelling mouthwash in November 2016.
Ms. Candelario testified that Respondent had a flat
affect when she mentioned the smell of alcohol on
him. Respondent countered by submitting the Truth
Verification Laboratory report into evidence which
indicated respondent was tested for alcohol on October
27, 2015. Although the results came back negative,
the test only covered a three month period because
Respondent’s hair was too short and the nail sample
was not sufficient enough to conduct a test. Moreover,
and significant, Respondent admitted that he was
actively drinking through January 2016.

App.67a
The Court finds Ms. Candelario’s testimony
compelling regarding Respondent’s difficulty meeting
the emotional needs of the child during the visits.
The Court does not discredit that Respondent’s rela­
tionship with the Child has developed since the
commencement of his supervised visits with the
support of Ms. Candelario. However, there were specific
instances where Respondent was not equipped to
handle the Child’s anxiety. Respondent resisted the
recommendations made by Ms. Candelario to improve
the relationship by making an effort with Petitioner
and the Child’s therapist, Dr. Behrman, to understand
the Child’s emotional needs because he allegedly did
not know that he was supposed to. Respondent did
not reach out to Dr. Behrman until several months
after the filing of the petition and did not make an
effort to work with Dr. Behrman until several months
after the commencement of the fact-finding hearing.
Both Petitioner and Mr. Haims testified that the
Child was enrolled in therapy in November 2015 to
address the Child’s feeling of loss over the Mother
and maternal grandmother. Mr. Haims testified that
he relayed Dr. Behrman’s recommendations to Respond­
ent on how to aid the Child with her grief. Respondent
did not refute Mr. Haims’ testimony regarding his
efforts to keep him informed as to the Child’s mental
and emotional status and needs. Respondent did not
reach out to Dr. Behrman until April 2016. Dr.
Behrman testified that she discussed meeting monthly
with Respondent so he could better address the
Child’s needs and that Respondent had not reached
out to her again for another seven months. Respondent
did not start to meet or speak with Dr. Behrman
monthly until March 2017, three months after Dr.

App.68a

Behrman testified at the fact-finding hearing regarding
his lack of efforts.
Dr. Behrman testified that in her opinion, relation­
ship and attachment are more important than biology.
Dr. Behrman’s understanding from her conversations
with Respondent was that he was never the Child’s
primary caretaker and that if it were up to him, he
would rather have a babysitter care for the Child while
he was working rather than Petitioner. Respondent’s
lack of empathy for the Child led Dr. Behrman to
believe that the Child would not thrive in his household
if she were removed from Petitioner.
At the time Dr. Behrman testified, Respondent
was not yet married to Mrs. Lehmann, but they had
been dating for 10 months. Mrs. Lehmann married
Respondent on July 1, 2017 and had never met the
Child. Mrs. Lehmann testified that she was aware
that Respondent was an alcoholic a few weeks into
their relationship but chose not to ask Respondent
questions regarding his relapses because she did not
want to judge him about his past.
Mrs. Lehmann testified that she believed that
Dr. Behrman was biased against Respondent and
that if Respondent were to be granted custody of the
Child, she and Respondent planned to change all of
the Child’s providers. The Court is concerned that
neither Respondent nor Mrs. Lehmann had any
specific plans regarding maintaining the Child’s rela­
tionship with Petitioner. Further, both Mrs. Lehmann
and Respondent acknowledge text messages regarding
seeking vengeance against the Mother’s family. Mrs.
Lehmann claimed she could not recall the context of
the conversations.

App.69a
Neither party called Dr. Abrams, the forensic
evaluator, as a witness to cross examine the forensic
report submitted to the Court and admitted into
evidence as Court Exhibit 1. Although the forensic
report is over a year old, the Court gives it limited
weight to the extent the findings contained therein
are consistent with much of the testimony offered at the
fact-finding hearing. Dr. Abrams found that Respond­
ent entering into a relationship with Mrs. Lehmann
at the same time he committed to sobriety to be
problematic. Dr. Abrams wrote that an alcoholic should
not engage in a relationship within the first year of
sobriety and should learn “to understand himself in
the absence of alcohol.” See, Court Exhibit 1 at page
20. Dr. Abrams found that although Respondent
connected with the Child better than he did with
other adults, there was ample evidence to support
Petitioner’s concerns regarding Respondent’s ability
to parent the child and that Respondent should seek
professional support to learn how to better parent
before obtaining custody. Dr. Abrams also wrote that it
would be irresponsible to change the Child’s caretaker
“not even taking into account the serious psychological
consequences to her for any failures on [Respondent’s]
part in a role as primary caretaker.” See, Court Exhibit
1 at page 21.
Respondent has not established that he sought
treatment for his depression except he stated that he
is taking medication for it. He is completely reliant
upon Dr. Centurion, who sees him every three months
to determine whether he is going to remain on the
medication or is in need of individual therapy. Signif­
icantly, he is not in therapy. Mrs. Lehmann’s testimony
that she chose not to question Respondent regarding

App.70a
his past with alcohol, her testimony that Respondent
is emotionally guarded, Dr. Griffin’s report that
Respondent tends to isolate himself, and Respondent’s
testimony that he does not discuss his depression
with Dr. Centurion and does not feel he needs a
therapist, concerns this Court.
Respondent has not established that he has com­
mitted himself to a program to maintain sobriety. He
testified to going to either Smart Recovery or AA, but
does not believe in a higher power, sponsorship or
the tenants of the AA program. He states that he
now goes to AA because it is more convenient for
him. The Court heard testimony that Respondent
was not going to AA because of his fear that his
statements would not be confidential and exposed
during litigation and also that he did not believe in
the program, and yet other testimony that he is in
fact attending AA meetings. Further, there was incon­
sistent testimony offered by Respondent’s witnesses
regarding the frequency and regularity in which he
attends Smart Recovery or AA.
Based on the foregoing, the Court finds that
Petitioner has sustained her burden of proving extra­
ordinary circumstances exist warranting a best interest
determination. The Court finds that based on the
totality of the circumstances, Respondent is unfit to
be the sole custodian of the Child. Respondent, who
admitted that he is an alcoholic has not sufficiently
addressed his alcoholism and has never been the
primary caretaker of the Child. Moreover, there was
no credible testimony offered to rebut the testimony
of Dr. Behrman, and also the contents of the report of
Dr. Abrams which also states that changing the
Child’s primary caretaker from Petitioner to Respond-

App.71a

ent would cause profound trauma to the Child, who
has already experienced enormous loss.
The Court finds that it is in the best interest of
the Child to award Petitioner physical Custody of the
Child. This determination is based upon Petitioner’s
ability to meet the Child’s physical, emotional, mental,
and psychological needs. Petitioner has been providing
the Child a stable, consistent, and structured home
environment. Respondent did not establish that he
was ever the primary caretaker for the Child at any
point in her life or that there would be any adverse
effect to their relationship if Petitioner were awarded
physical custody. In fact, there was credible testimony
offered regarding Petitioner’s efforts to foster the
relationship between Respondent and the Child.
Respondent did not offer any credible testimony that
he would foster a relationship between the Child and
the Mother’s family.
Notwithstanding the foregoing, although the Court
finds Petitioner to be the more fit and appropriate
party to be awarded residential custody of the Child,
the Court also finds it to be in the best interest of the
Child to award the parties joint legal custody with
Petitioner having final decision making authority
over the Child’s health, education, and general welfare
„ matters after meaningful consultation with Respond­
ent. Respondent shall be entitled to all information
regarding the Child’s health, education, and general
welfare providers and records. The Court also directs
that Respondent’s parenting time with the Child
shall graduate to unsupervised access. See, Johnson
v. Johnson, 13 A.D.3d 678 (3rd Dept. 2004); see also
Dahgir at 194.

App.72a

The Court finds that in order for the relationship
between Petitioner and Respondent to exist in a way
that benefits the Child, and based upon the acrimonious
relationship of the parties, the parties shall engage
in family therapy. The Court also hereby directs
Petitioner and Respondent to enroll and participate
in family therapy with Benna Strober, Psy.D. Dr.
Strober has worked with the family as a therapeutic
supervisor and is already familiar with the parties.
Registry
The Court searched the statewide registry of
Orders of Protection, the sex offender registry and
the State’s child protective records and found no
results.
Accordingly it is hereby
ORDERED AND ADJUDGED, on consent, that
the guardianship petition filed under G-11126-15
shall be converted to a custody petition under docket
number V-l 1126-15; and it is further
ORDERED AND ADJUDGED, that extraordinary
circumstances exist to warrant a best interest analysis;
and it is further
ORDERED AND ADJUDGED, that the petition
is hereby granted to the extent stated herein; and it
is further
ORDERED AND ADJUDGED, that it is in the
best interest of the Child, 0[...] Lehmann, born XXXX,
2011, that Petitioner and Respondent shall share
joint legal custody of the Child; and it is further
ORDERED AND ADJUDGED, that it is in the
best interest of the Child that Petitioner shall have

App.73a

residential custody of the Child subject to Respondent’s
right to parental access; and it is further
ORDERED, that Petitioner shall have final deci­
sion making authority on issues regarding the Child’s
health, education and general welfare after meaningful
consultation with Respondent; and it is further
ORDERED, that Respondent shall have access
to the Child’s health, education, and general welfare
providers and records, and Petitioner shall sign any
releases necessary for Respondent’s access; and it is
further
ORDERED, that Respondent shall be listed as
the Child’s Father on all forms and designated as an
emergency contact for the Child; and it is further
ORDERED, that the parties shall utilize Our
Family Wizard, and keep each other informed of the
Child’s schedule; and it is further
ORDERED, that Petitioner shall keep Respondent
informed of all appointments for the Child and
Respondent shall have the option of attending the
appointment(s); and it is further
ORDERED, that effective December 31, 2017,
Respondent’s therapeutic supervised visitation with
the Child shall conclude; and it is further
ORDERED, that effective January 1, 2018, Res­
pondent shall have unsupervised parenting time with
the Child and shall be responsible for all transportation
of the Child for his parental access; and it is further
ORDERED, that Respondent shall not, use,
consume, possess, or be under the influence of any

App.74a

illegal drugs or alcohol while in the presence of the
Child; and it is further
ORDERED, that the parties shall exchange the
Child curbside at Petitioner’s residence for Respondent’s
parental access with the Child; and it is further
ORDERED, that commencing Saturday, January
6, 2018, and every Saturday through to Saturday,
February 24, 2018, Respondent shall have parenting
time with the Child from 12:00 p.m. through 4:00
p.m.; and it is further
ORDERED, that commencing Saturday, March
3, 2018 and every Saturday through to Saturday,
April 28, 2018, Respondent shall have parenting time
with the Child from 12:00 p.m. through 7:00 p.m.;
and it is further
ORDERED, that commencing Friday, May 4, 2018,
and every weekend through to Friday, June 29, 2018,
Respondent shall have parenting time with the Child
from Friday at 7:00 p.m. through Saturday at 7:00
p.m.; and it is further
ORDERED, that commencing Friday, July 6,
2018, through to Friday, August 24, 2018, Respondent
shall have parenting time with the Child the first
three weekends in July and the first three weekends
in August from Friday at 7:00 p.m. through Sunday
at 7:00 p.m.; and it is further
ORDERED, that between Friday, July 6, 2018
and Friday, August 24, 2018, Petitioner shall have
two weekends with the Child, one the last weekend
in July and one the last weekend in August; and it is
further

App.75a

ORDERED, that commencing Friday, August 31,
2018 and every weekend thereafter, Respondent shall
have parenting time with the Child from Friday at
7:00 p.m. through Sunday at 7:00 p.m.; and it is
further
ORDERED, that effective Friday, August 31, 2018,
if the Monday following Respondent’s weekend is a
holiday, Respondent’s parental access shall extend to
Monday at 7:00 p.m.; and it is further
ORDERED, that Respondent shall have parenting
time with the Child on his birthday, each year, from
11:00 a.m. through 7:00 p.m.; and it is further
ORDERED, that if Respondent is not scheduled
to have parenting time with the Child on her birthday,
he shall have parenting time from 11:00 a.m. to 7:00
p.m. if there is no school, or for three hours if school
is in session at such time as agreed to between the
parties in writing; and it is further
ORDERED, that Respondent shall ensure that
the Child’s homework is completed prior to the Child
returning to Petitioner’s residence; and it is further
ORDERED, that the parties shall alternate major
holidays with the Child and the holiday and summer
schedule shall supercede the regular access schedule;
and it is further
ORDERED, that commencing in 2019, and odd
numbered years thereafter, Respondent shall have
the Child on New Year’s Day from 11:00 a.m. through
7:00 p.m.; and it is further
ORDERED, that commencing in 2018 and even
numbered years thereafter, Respondent shall have

App.76a

the Child on July 4th from 11:00 a.m. through 7:00
p.m.; and it is further
ORDERED, that for Thanksgiving 2018 only,
Respondent shall have the Child from Thursday at
7:00 p.m. through Sunday at 7:00 p.m.; and it is
further
ORDERED, that commencing 2019 and odd
numbered years thereafter, Respondent shall have
the Child on Thanksgiving day from 11:00 a.m.
through 7:00 p.m.; and it is further
ORDERED, that commencing 2018 and every year
thereafter, Respondent shall have the Child on Christ­
mas Eve and Christmas Day from December 24th
after school or at 11:00 a.m. if there is no school through
December 26th at 11:00 a.m.; and it is further
ORDERED, that commencing in 2018 and even
numbered years thereafter, Respondent shall have
the school Christmas Recess from December 26th at
11:00 a.m. through the Friday before school recom­
mences at 7:00 p.m.; and it is further
ORDERED, that commencing 2019, and odd
numbered years thereafter, Petitioner shall have the
Child for the school Christmas Recess from December
26th at 11:00 a.m. through the Friday before school
recommences at 7:00 p.m.; and it is further
ORDERED, that commencing 2019 and odd
numbered years thereafter Petitioner shall have the
Child for the school February recess, and in 2020 and
even numbered years thereafter Respondent shall
have the Child for the school February recess; and it
is further

App.77a

ORDERED, that commencing in 2019 and odd
numbered years thereafter, Respondent shall have
the Child for the school Spring Recess, and in 2020
and even numbered years thereafter, Petitioner shall
have the Child for the school Spring recess; and it is
further
ORDERED, that commencing 2019 and every
year thereafter, the parties shall each have two nonconsecutive weeks of summer vacation with the Child;
and it is further
ORDERED, that the parties shall notify each
other in writing on or before April 1st with Respondent
having first choice in 2019 and odd numbered years
thereafter, and Petitioner having first choice in 2020
and even numbered years thereafter; and it is further
ORDERED, that if either party travels away from
their home with the Child for 24 hours Or more, the
traveling party shall provide the other party with 14
day written notice, and itinerary, and a landline
telephone number of where the Child may be reached;
and it is further
ORDERED, that if either party travels inter­
nationally with the Child, the traveling party shall
provide the other party with 30 day written notice,
an itinerary, and a landline telephone number of where
the Child may be reached; and it is further
ORDERED, that neither party shall unreasonably
withhold his or her consent for the Child to travel;
and it is further
ORDERED, that Respondent shall have such
other, further, or different parenting time with the

App.78a

Child as mutually agreed by and between the parties
in writing; and it is further
ORDERED, that the parties shall keep each
other informed of their address, telephone number
and email address; and it is further
ORDERED, that neither party shall move outside
a 30 mile radius of where he or she currently resides
absent written consent or Order from a Court of
competent jurisdiction; and it is further
ORDERED, that the parties may have and shall
make the Child available for reasonable and uninter­
rupted telephone access for 15 minutes when the
Child is not in his or her care at such time as
mutually agreed by and between the parties; and it is
further
ORDERED, that any firearms owned or possessed
by Respondent shall be licensed and registered and
Respondent shall ensure that any and all firearms
including but not limited to pistol, revolver, shotgun,
rifle, assault weapon or the like are safely secured
and out of the reach of the Child at all times while
the Child is in his care; and it is further
ORDERED, that on or before January 1, 2018,
the parties shall contact Benna Strober, Psy.D., 71
Smith Avenue, Mt. Kisco, NY (914) 329-5355 to
schedule family therapy; and it is further
ORDERED, that neither party shall make dis­
paraging remarks about the other party, nor allow a
third person to do so within the presence of the
Child; and it is further
ORDERED, that neither party shall discuss any
litigation with the Child, nor allow any third person

App.79a
to do so within the presence of the Child; and it is
further
ORDERED, that the parties shall encourage and
foster a loving, trusting, and nurturing relationship
between the Child and the other party.
THIS CONSTITUTES THE DECISION AND
ORDER OF THE COURT.
PURSUANT TO SECTION 1113 OF THE
FAMILY COURT ACT, AN APPEAL FROM THIS
ORDER MUST BE TAKEN WITHIN 30 DAYS OF
RECEIPT OF THE ORDER BY APPELLANT IN
COURT, 35 DAYS FROM THE DATE OF MAILING
OF THE ORDER TO APPELLANT BY THE CLERK
OF COURT, OR 30 DAYS AFTER SERVICE BY A
PARTY OR THE ATTORNEY FOR THE CHILD
UPON THE APPELLANT, WHICHEVER IS
EARLIEST.
ENTER
/s/ Hon. Rachel Hahn
Judge of the Family Court
Dated: December 18, 2017

App.80a
TEMPORARY ORDER OF PROTECTION OF
FAMILY COURT OF THE STATE OF NEW YORK
(SEPTEMBER 2, 2015)
FAMILY COURT OF THE STATE OF NEW YORK,
COUNTY OF WESTCHESTER
In the Matter of a GUARDIANSHIP Proceeding
NICOLE HAIMS,
Petitioner,
v.
JOHN LEHMANN,
Respondent.
File #: 143772
Docket#: G-l 1126-15
Before: Hon. Rachel HAHN, Judge.
Notice: Your failure to obey this order may subject
YOU TO MANDATORY ARREST AND CRIMINAL PROSECUTION,
WHICH MAY BE RESULT IN YOUR INCARCERATION FOR UP
TO SEVEN YEARS FOR CRIMINAL CONTEMPT, AND/OR MAY
SUBJECT YOU TO FAMILY COURT PROSECUTION AND
INCARCERATION FOR UP TO SIX MONTHS FOR CONTEMPT
OF COURT. IF YOU FAIL TO APPEAR IN COURT WHEN YOU
ARE REQUIRED TO DO SO, THIS ORDER MAY BE EXTENDED
IN YOUR ABSENCE AND THEN CONTINUES IN EFFECT UNTIL
A NEW DATE SET BY THE COURT.

App.81a

This order of protection will remain in effect
EVEN IF THE PROTECTED PARTY HAS, OR CONSENTS TO
HAVE, CONTACT OR COMMUNICATION WITH THE PARTY
AGAINST WHOM THE ORDER IS ISSUED. THIS ORDER OF
PROTECTION CAN ONLY BE MODIFIED OR TERMINATED BY
THE COURT. THE PROTECTED PARTY CANNOT BE HELD TO
VIOLATE THIS ORDER NOR BE ARRESTED FOR VIOLATING
THIS ORDER.

A petition under article 6 of the Family Court
Act, having been filed on August 24, 2015 at this
Court and good cause having been shown, and John
Lehmann having been not present in Court.
NOW, THEREFORE, IT IS HEREBY ORDERED
that John Lehmann observe the following conditions
of behavior:
[02] Refrain from assault, stalking, harassment,
aggravated harassment, menacing, reck­
less, endangerment, strangulation, criminal
obstruction of breathing or circulation dis­
orderly conduct, criminal mischief, sexual
abuse, sexual misconduct, forcible touching,
intimidation, threats, identity theft, grand
larceny, coercion or any criminal offense
against 0[...] Lehmann (DOB: XX/XX/2011);
[12] Surrender any and all handguns, pistols,
revolvers, rifles, shotguns and other firearms
owned or possessed, including but not limited
to, the following; ANY AND ALL FIREARMS
and do not obtain any further guns or other
firearms. Such surrender shall take place
immediately, but in no event later than
IMMEDIATELY UPON SERVICE OF THIS

App.82a
TEMPORARY ORDER OF PROTECTION,
at LOCAL POLICE DEPARTMENT.,
[99] Observe such other conditions as are neces­
sary to further the purpose of protection; John
Lehmann shall not remove the subject child
OU Lehmann (DOB: XX/XX/2011) from the
home of the petitioner.
[99] Observe such other conditions as are neces­
sary to further the purposes of protection;
John Lehmann shall have supervised visit­
ation with the subject child 0[_] Lehmann
(DOB: XX/XX/2011). The petitioner shall be
the supervisor for the visitation.,
It is further ordered that this temporary order of
protection shall remain in force until and including
September 22, 2015 but if you fail to appear in court
on this date, the order may be extended and continue
in effect until a new date set by Court.
ENTER
/s/ Rachel Hahn
Honorable Rachel Hahn
Dated: September 2, 2015

